<html>
<title> - VOLUNTARY CONSERVATION: UTILIZING INNOVATION AND TECHNOLOGY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





      VOLUNTARY CONSERVATION: UTILIZING INNOVATION AND TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2016

                               __________

                           Serial No. 114-45




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov





                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-388 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

                 GLENN THOMPSON, Pennsylvania, Chairman

FRANK D. LUCAS, Oklahoma             MICHELLE LUJAN GRISHAM, New 
STEVE KING, Iowa                     Mexico, Ranking Minority Member
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
DAN BENISHEK, Michigan               SUZAN K. DelBENE, Washington
RICK W. ALLEN, Georgia               ANN KIRKPATRICK, Arizona
MIKE BOST, Illinois

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Lujan Grisham, Hon. Michelle, a Representative in Congress from 
  New Mexico, opening statement..................................     4
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     5
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     1
    Prepared statement...........................................     3

                               Witnesses

Weller, Jason, Chief, Natural Resources Conservation Service, 
  U.S. Department of Agriculture, Washington, D.C................     6
    Prepared statement...........................................    16
Dawson, Rachel, Senior Manager, Delaware River, National Fish and 
  Wildlife Foundation, Washington, D.C...........................    46
    Prepared statement...........................................    48
Price, Frank, Owner, Frank and Sims Price Ranch; Member, National 
  Cattlemen's Beef Association, Sterling City, TX................    52
    Prepared statement...........................................    53
Bowman, Richard, Director of Government Relations, The Nature 
  Conservancy, Lansing, MI.......................................    55
    Prepared statement...........................................    56
Rodelius, Kent, Vice President, Agricultural Drainage Management 
  Coalition, Willmar, MN.........................................    59
    Prepared statement...........................................    60
 
      VOLUNTARY CONSERVATION: UTILIZING INNOVATION AND TECHNOLOGY

                              ----------                              


                         TUESDAY, MARCH 1, 2016

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:41 p.m., in 
Room 1300 of the Longworth House Office Building, Hon. Glenn 
Thompson [Chairman of the Subcommittee] presiding.
    Members present: Representatives Thompson, Gibson, 
Benishek, Allen, Bost, Lujan Grisham, Kuster, Nolan, 
Kirkpatrick, and Peterson (ex officio).
    Staff present: Josh Maxwell, Patricia Straughn, Skylar 
Sowder, Faisal Siddiqui, John Konya, Anne Simmons, Evan 
Jurkovich, Nicole Scott, and Carly Reedholm.

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. This hearing of the Subcommittee on 
Conservation and Forestry about voluntary conservation: 
utilizing innovation and technology, will come to order. Good 
afternoon, everyone. Chief, thank you for being here. Sorry 
about the delay. Votes have a way of getting in the way of 
things around here. Thank you for your patience. The good news, 
I guess that was the first and the last of the votes for today, 
so we shouldn't run into any further problems with votes or 
conflicts.
    I would like to welcome everyone to this hearing of the 
Conservation and Forestry Subcommittee on the topic of 
utilizing innovation and technology in voluntary conservation. 
This hearing provides an opportunity to highlight new 
practices, innovative approaches to using tried and true 
methods and advancing technology as it applies to voluntary 
conservation efforts.
    We know that voluntary conservation programs work. However, 
it has become increasingly clear that some government agencies 
and environmental activist organizations, which are sometimes 
one in the same, fail to recognize the commitment our farmers, 
ranchers, and foresters make to environmental stewardship.
    Our farmers and ranchers, through assistance and incentives 
provided by the farm bill conservation programs have 
voluntarily reduced soil erosion, increased wetlands, improved 
water quality, and preserved farmland and wildlife habitat. The 
Earth's population is projected to grow to roughly nine billion 
people by the year 2050. Given the growing demands on farmlands 
everywhere, we must invest in the necessary resources and the 
best practices to be certain that producers can continue to 
meet this growing need.
    To that end, I am particularly proud of this Committee's 
work on conservation programs during the deliberation of the 
most recent farm bill. The 2014 Farm Bill contained creative, 
outside-the-box approaches to funding and delivering 
conservation programs.
    Now one of the biggest successes of this creative approach 
has been the Regional Conservation Partnership Program, known 
as RCPP. RCPP is an innovative approach to target conservation 
initiatives. It uses NRCS programs that produce known 
conservation improvements and leverages that Federal funding 
with matching funding from partners in the private-sector. Now 
it has brought together broad coalitions consisting of 
commodity organizations, conservation groups, sportsmen and 
others to unite around a common goal.
    In the first 2 years, RCPP has awarded funding to 199 
projects across all 50 states and Puerto Rico, and matched over 
$500 million in program funding with $900 million from the 
partner contributions. Now these efforts that bring all 
perspectives to the table are the ones that are actually 
working, and it takes everyone coming together.
    Today, we will hear firsthand how RCPP projects are being 
implemented in tandem with many other programs and tools at 
NRCS's disposal, and I especially look forward to hearing about 
an RCPP project that is taking place in my home, the 
Commonwealth of Pennsylvania.
    Our farmers and ranchers are the best stewards of the land, 
and continually adapt to protect our natural resources, despite 
the overly burdensome regulatory environment that is imposed 
upon them. I see this all the time across the 5th District of 
Pennsylvania where farmers are engaging in innovative 
practices, including no-till farming, healthy soils, and 
adhering to other best practices in order to preserve the 
nutrients in the soil.
    In addition to the great work being done at the state and 
county levels, I am proud that so many of the farmers and 
foresters in Pennsylvania have taken voluntary steps in order 
to do their part to assist in the recovery of the Chesapeake 
Bay. The environmental gains that they have achieved are a 
testament to our producers. No two producers face the same 
natural resource concerns, whether they are 2 miles or 2,000 
miles apart from each other. Protecting our drinkable water 
supply, keeping nutrients in the soil for the next crop year, 
or maintaining a supply of forage for livestock, there is no 
shortage of reasons why we must continue to innovate when it 
comes to preserving our natural resources.
    I would like to obviously thank Mr. Jason Weller, Chief of 
the NRCS for being here today. We greatly appreciate it, Chief. 
I encourage everyone to pay close attention to the testimony of 
our second panel, which is representative of a wide swath of 
our country. It is encouraging to see how farmers, ranchers, 
foresters, and stakeholders have made promoting the health and 
sustainability of the land a fundamental priority.
    Again, thank you all for making the time to be here today, 
and I look forward to hearing the testimony of each of our 
witnesses.
    [The prepared statement of Mr. Thompson follows:]

Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
    Good afternoon. I would like to welcome everyone to this hearing of 
the Conservation and Forestry Subcommittee on the topic of utilizing 
innovation and technology in voluntary conservation.
    This hearing provides an opportunity to highlight new practices, 
innovative approaches to using tried and true methods, and advancing 
technology as it applies to voluntary conservation efforts.
    We know that voluntary conservation programs work.
    However, it has become increasingly clear that some government 
agencies and environmental activist organizations--which are sometimes 
one in the same--fail to recognize the commitment our farmers, ranchers 
and foresters make to environmental stewardship.
    Our farmers and ranchers, through assistance and incentives 
provided by farm bill conservation programs, have voluntarily reduced 
soil erosion, increased wetlands, improved water quality, and preserved 
farmland and wildlife habitat.
    The Earth's population is projected to grow to roughly nine billion 
people by the year 2050. Given the growing demands on farmland 
everywhere, we must invest in the necessary resources and best 
practices to be certain that producers can continue to meet this 
growing need.
    To that end, I am particularly proud of this Committee's work on 
conservation programs during the deliberation of the most recent farm 
bill. The 2014 Farm Bill contained creative, outside-the-box approaches 
to funding and delivering conservation programs.
    One of the biggest successes of this creative approach has been the 
Regional Conservation Partnership Program, known as RCPP. RCPP is an 
innovative approach to target conservation initiatives. It uses NRCS 
programs that produce known conservation improvements, and leverages 
that Federal funding with matching funding from partners in the 
private-sector.
    It has brought together broad coalitions consisting of commodity 
organizations, conservation groups, sportsmen, and others to unite 
around a common goal.
    In the first 2 years, RCPP has awarded funding to 199 projects 
across all 50 states and Puerto Rico and matched over $500 million in 
program funding with $900 million from partner contributions.
    These efforts that bring all perspectives to the table are the ones 
that are actually working. It takes everyone coming together.
    Today we will hear firsthand how RCPP projects are being 
implemented in tandem with the many other programs and tools at NRCS' 
disposal. I especially look forward to hearing about an RCPP project 
that is taking place in my home, the Commonwealth of Pennsylvania.
    Our farmers and ranchers are the best stewards of the land and 
continually adapt to protect our natural resources despite the overly 
burdensome regulatory environment imposed upon them.
    I see this all the time across the 5th District of Pennsylvania, 
where farmers are engaging in innovative practices, including no-till 
farming, and adhering to other best practices in order to preserve the 
nutrients in the soil.
    In addition to the great work being done at the state and county 
levels, I am proud that so many of the farmers and foresters in 
Pennsylvania have taken voluntary steps in order to do their part to 
assist in the recovery of the Chesapeake Bay. The environmental gains 
they have achieved are a testament to our producers.
    No two producers face the same natural resource concerns--whether 
they are 2 miles or 2,000 miles apart from each other--protecting our 
drinkable water supply, keeping nutrients in the soil for the next crop 
year, or maintaining a supply of forage for livestock, there is no 
shortage of reasons why we must continue to innovate when it comes to 
preserving our natural resources.
    I would like to thank Mr. Jason Weller, Chief of the NRCS, for 
being here today.
    I encourage everyone to pay close attention to the testimony of our 
second panel, which is representative of a wide swath of our country. 
It is encouraging to see how farmers, ranchers, foresters, and 
stakeholders have made promoting the health and sustainability of the 
land a fundamental priority.
    Again, thank you all for making the time to be here today. I look 
forward to hearing the testimony of each of our witnesses.

    The Chairman. I now yield to the Ranking Member for her 
opening statement.

      OPENING STATEMENT OF HON. MICHELLE LUJAN GRISHAM, A 
           REPRESENTATIVE IN CONGRESS FROM NEW MEXICO

    Ms. Lujan Grisham. Thank you, Mr. Chairman, and welcome, 
Chief Weller. I, too, appreciate that we are having a hearing 
on how to be more innovative and how to do that in a way that 
incentivizes ranchers and farmers, because clearly we need 
their participation. In fact, they are a very effective, 
willing partner here because they recognize the value of 
effective conservation programs.
    Frankly, as I am preaching to the choir, I am sure farmers 
and ranchers are the backbone of conservation in America. They 
depend on the land for their livelihoods and seek to leave it 
better than they found it. I don't believe that anyone cares 
more about the land than farmers and ranchers. Farmers and 
ranchers across the country have sought to protect water 
quality, soil, agriculture productivity, forest management, and 
air quality by using tools available through the farm bill. 
Specifically, USDA's Natural Resources Conservation Service.
    I have often mentioned the inadequate rainfall and drought 
conditions in my home State of New Mexico, and in the 
Southwest. Fortunately, there are conservation tools available 
to help southwestern producers cope with these dire situations. 
I have heard from several New Mexico producers that the 
Conservation Stewardship Program, which pays producers to adopt 
conservation activities to improve working lands, is helping to 
keep many farmers and ranchers on their lands and in business 
during the past drought. The most recent dire drought has been 
about 5 years, but we expect drought conditions to continue for 
decades longer.
    In addition, the Regional Conservation Partnership Program, 
RCPP, which was created in the 2014 Farm Bill, has allowed the 
New Mexico Association of Conservation Districts to work with 
the New Mexico Acequia Association, and several New Mexico 
land-grants to restore historic acequias on agricultural lands, 
and maybe for some of the folks on the Committee and our 
viewers today, acequias are a traditional way of bringing water 
in arid communities, and it is directly from Spain, that 
irrigation method. This project helps improve water quantity 
and quality, and supports local families and communities served 
by the acequia system. I am looking forward to hearing more 
about conservation efforts that we can explore to help address 
water shortages and improve water quality.
    Soils and soil health have been a recent topic of 
conversation, with last year being the International Year of 
Soils. This resource is critical to the health of the country 
and production of a quality food supply, and I thank the NRCS 
for promoting the issue. Our soils will be a valuable part of 
any future plans to combat global climate change. They have the 
tremendous ability to store carbon, and will only become more 
valuable in the future. I look forward to hearing from Chief 
Weller on ways to capitalize on this underused carbon sink.
    One project I am excited to hear more about in New Mexico 
is the Innovative Tribal Conservation and GHG Management 
Project, which is part of the RCPP under the farm bill. 
Conservation really is an unsung hero when we think about 
American agriculture. Voluntary conservation programs through 
the farm bill are key to helping our farmers and ranchers 
succeed and to keep protecting our natural resources.
    Again, I want to thank the Chairman for holding today's 
hearing, and I am certainly looking forward to hearing from the 
witnesses. Thank you.
    The Chairman. I thank the gentlelady.
    I now recognize the Ranking Member of the full Agriculture 
Committee, Mr. Peterson, for an opening statement.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. I will be brief. I 
want to thank you and the Ranking Member for holding this 
hearing.
    The farm bill's conservation programs provide necessary 
tools for farmers and ranchers that preserve our natural 
resources and help us meet regulatory requirements. I have been 
a long-time supporter of voluntary conservation efforts, and 
these efforts have been useful in my area in a number of 
different ways.
    One of the things I have been trying to do is get folks to 
understand that if we do drainage water management in the right 
way, we can not only do a better job of managing the water, but 
also get environmental benefits from being able to do this. In 
my part of the world, we have this flooding going on in the Red 
River Valley, and whenever we have a flood, it just goes across 
land and washes everything out and it all goes in the river, 
and it is a big mess. One thing I am trying to get people to 
look at is the benefits we can get if we do pattern tiling, 
where we try to manage this water underneath the ground instead 
of over top of the ground. We have a witness from my district 
here to explain that to people today, and I thank the Chairman 
for including that person. Also, we are going to, potentially, 
have a field listening session up in our part of the world to 
further explore this, so I appreciate the opportunity to have 
those folks here, and Chief, we are looking forward to your 
testimony. Welcome to the Committee.
    The Chairman. I thank the gentleman. The chair requests 
that other Members submit their opening statements for the 
record so that the witnesses can begin their testimony to 
ensure that there is ample time for questions. The chair would 
also like to remind Members that they will be recognized for 
questioning in the order of seniority for Members who were 
present at the start of the hearing. After that, Members will 
be recognized in order of their arrival. I appreciate the 
Members' understanding.
    Once again, Chief, thank you so much, I know it is 
difficult carving time out of what are busy days to be able to 
come here and to join us. Once again, I am pleased to welcome 
Chief Jason Weller, Natural Resources Conservation Service, 
U.S. Department of Agriculture, to the table, and Chief Weller, 
please go ahead and begin when you are ready. We have waived 
the normal 5 minutes of time to give you adequate time to 
present the information that you have before us.
    So go ahead and begin when you are ready.

           STATEMENT OF JASON WELLER, CHIEF, NATURAL
RESOURCES CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Mr. Weller. Good afternoon, Mr. Chairman, Ms. Lujan 
Grisham, and Members of the Committee. It is good to see you 
all again. I am really excited to be here today and I really 
commend the Committee. Mr. Chairman, the opportunity you are 
affording NRCS, but also the other witnesses here, to talk 
about all the really positive contributions that farmers and 
ranchers are making, and how much innovation is occurring right 
now in the private lands voluntary incentive-based conservation 
arena. It is unprecedented, and I hope to be able to touch upon 
it really briefly in my presentation, and I also very much 
appreciate your forbearance here to allow me to extend my 
remarks a few minutes and actually share with the Committee 
some slides that I have put together. This is, I guess, a 
fallout from the last hearing we had with you and the Committee 
on the soil health topic. This is really an expansion on that 
topic.
    The way this is organized--and this has been really 
difficult for me because, in part, there is so much I want to 
talk about and there are so many awesome things that are 
happening right now. To get this condensed down to 10 minutes 
is pretty hard to do, so I am going to do my best.
    This is grouped into three topic areas. First, is next 
level upgrade for science, next level upgrade for tools, and 
then next level upgrade for partnerships. And all of you talked 
about this in your opening statements, really touched upon what 
is happening in these three areas of science, tools, and 
partnerships.
    NRCS started, as you know, over 80 years ago in the wake of 
the Dust Bowl, and we were at the very beginning, the very 
genesis, the first chief, Hugh Hammond Bennett, Dr. Bennett 
created a Soil Conservation Service. We were known as a 
technical, science-based agency, and what we shared was that 
scientific knowledge with that farmer and rancher to better 
manage, initially, their soils. It is really, then incumbent 
upon us to stay current with current edge of the science, state 
of the science, and continue to share that technical knowledge. 
And really, in everything that we do, whether it is through a 
program, through a conservation plan, it is sharing and 
imparting that technical knowledge on the landscape.
    Really, what we are very focused on at NRCS then is 
ensuring we are not just current, state of the art, but even 
leading edge in many cases on the current state of agronomic 
and conservation science.
    An example of what we have been working with our partners 
from edufield monitoring systems where we are really trying to 
understand beyond modeling--we are really trying to understand 
what is actually happening in real world agriculture and real 
world environments. When you put in place different crop 
rotation systems, residue management systems, tilling 
practices, nutrient management practices, what happens when you 
compare a treated field and an untreated field side by side? 
What happens to the surface water, and importantly, maybe you 
have installed a biorack as part of your ag drainage water 
management system. What happens to that tile water coming out 
of the line? Then over time, we can really scientifically, 
credibly understand when you tweak and manage your crop fields 
better, what is the ultimate result? Beyond something modeled, 
you are actually getting real world information, which you can 
then feed back to that land owner, to that customer, to that 
farmer or rancher. And that scientific knowledge then helps 
drive better landscape decisions, both on a farm, but then in 
this case, a watershed.
    What we are looking at here comes out of Iowa, Sac County, 
Iowa, and this is a tributary of Black Hawk Lake. There is a 
producer, family operation, Linda Richie. And you can see here 
there is a lot of headcut going on in this tributary of the 
stream, and this reservoir is impacted by sediment loadings and 
intermittent loadings coming off farm fields. Well the NRCS, 
using that scientific knowledge we get from those in-field 
monitoring systems and our agronomic expertise can come into 
this landscape and prescribe practices that could transform 
that tributary from what would originally be a real threat to 
that reservoir, in this case, ensuring that clean waters 
continue to flow into that reservoir for that city's water 
supply, but also critically important in protecting those farm 
fields. They can stay productive over time and provide for the 
economic sustainability of that farm.
    Similarly, you can come to a farm field like this--this 
could be anywhere in the Midwest where you have conventional 
tillage going on, not much protection to that soil. You get a 
heavy rain event and you are seeing erosion occurring and the 
gullies forming, carrying off that farm field literally tons of 
sediment, pounds of nutrients that is leaving that farm field. 
Using, again, that science based solution approach, you can 
come in, change the tillage practices, put in cover crops, and 
you can see what the effect is in terms of protecting the water 
as the water leaves the field. It is not carrying the sediment. 
It is not carrying those farm inputs. It is leaving all those 
really valuable components of agriculture in place to grow the 
cash crops we depend upon for our food supply.
    We have used a lot of these scientific tools. What we see 
here is an image of Arkansas, and we have identified with state 
partners there in Arkansas where are small scale watersheds, 
where we know there are risks based on the soils, risks to 
water quality in Arkansas. And so you see, for example, up in 
the northeast part of Arkansas, northwest part of Arkansas, 
there are different river basins, the St. Francis River basin 
in the northeast part of the state. Over there on the border 
with Oklahoma, you see the Illinois River system. And I am 
proud to say, because of the voluntary contributions of farmers 
in these communities and the USDA conservation programs this 
Committee has funded and authorized, we have gone into these 
and over the last several years, put in place conservation 
practices on over 80,000 acres of cropland. As a result of 
these proactive investments, these stream segments are being 
de-listed. They were de-listed in 2014 off of the State of 
Arkansas's list of impaired waters. And this isn't something 
that happened in spite of agriculture, this is something that 
happened because of agriculture. Because of the positive, 
targeted approach that producers took, and the voluntary 
incentive-based conservation programs delivered, we were able 
to clean up these waterways and provide cleaner water for 
communities, but also keep those productive lands in working 
agriculture.
    Other success stories from around the country--this is out 
of South Dakota. This is out of south central South Dakota on 
the border with Nebraska, and it is the Keya Paha River 
watershed, and working counterclockwise from the upper right 
there, you can see where the watershed is located. And really, 
what the impact on these waters in the Keya Paha River was 
bacterial. There was too much E. coli and bacterial coliform 
colonies in the water column. And so we went in, we fenced up 
the creeks, we put in revegetated buffers. You can see in the 
lower left there revegetated buffers just 2 years after we went 
in and treated that watershed. And ultimately, partners there 
in the state went in there and monitored what was happening in 
the water columns. Beyond us modeling and saying we are doing 
good things, we are using science to actually track and give 
agriculture credit for the proactive solution, and you can see 
just over the course of 5 years, how we brought down and cut 
the E. coli bacterial counts by over \2/3\, bringing it to meet 
the state's water quality standards for bacteria.
    In Oklahoma, another success story. This is out of Pond 
Creek in north central Oklahoma in Grant County. This is a 60 
mile stream segment on the Pond Creek, and the entire Pond 
Creek was listed, the main injuries to their creek were low 
dissolved oxygen counts, which is really bad for aquatic 
species, turbidity, which is basically the cloudiness of the 
water, there is too much suspended sediment in the water, and 
nutrients, too much nitrogen and phosphorus in the water, and 
bacterial counts, four injuries.
    What you see here is the state went in and monitored what 
was happening in this watershed, and you can see in 2006 that 
in terms of the turbidity, 45--almost \1/2\--50 percent of the 
monitoring results brought back exceeded the state water 
quality standards, and similarly for the bacterial counts, far 
in excess of what was tolerated under the state water quality 
requirements.
    Well NRCS came in, invested over the course of about 8 
years, over $4 million of private lands voluntary incentive-
based conservation on the landscape. By 2014, in about 8 years, 
we have brought down--in terms of turbidity, there was zero 
exceedances of turbidity, and it met the state water quality 
standards for bacterial counts. This stream segment has been 
de-listed, and this is just one of 48 other success stories in 
Oklahoma in the past decade alone where USDA's conservation 
programs, working in concert and partnership with ranchers, are 
cleaning up the waters of Oklahoma and making those water 
systems and reservoirs healthier for both wildlife and for 
people.
    Beyond targeting in small scale watersheds, what this is, 
is a map of a large watershed, a large basin. In this case, it 
is the Western Lake Erie Basin, which has been a national 
focus, in part, because of the concerns in the area and the 
lake area itself. Let me kind of unpack here what this picture 
is showing. We are using science to really understand what are 
the underlying properties of the soils in this basin, and in 
the watersheds there where it is colored red, kind of a pink 
color, those are soils where inherently they are very erosive, 
and also very porous. They are going to be a high risk of loss 
of sediment and nutrients from those farm fields from surface 
flow. The green are watersheds or areas where there is low risk 
for erosion potential. As we are going to see over time here is 
from 2005 to 2015, we put in place 1.1 million unique acres of 
conservation practices in the Western Lake Erie Basin. You are 
going to see the points over time where using science, we have 
helped to work with farmers to target the right conservation 
practices, and these are just for the soil erosion practices. 
You are going to see the points appear here, and there are also 
colors associated with these points.
    In just about a decade, an enormous unleashed potential 
here of conservation delivering in this landscape, targeting 
those high risk soils, locking them down, avoiding loss by 
controlling and trapping sediments before they leave the farm 
fields, and this is just in the sediment. We have other layers 
we could have shown you also, looking at leaching potential 
where we have also targeted leaching practices. But we estimate 
that these practices alone over the course of a decade helped 
reduce or prevent upwards of 970,000 tons of sediment loss are 
now not flowing into Lake Erie, and upwards of 10.4 million 
pounds of nitrogen and 2.4 million pounds of phosphorus are now 
not flowing into Lake Erie because of all three conservation 
programs delivered by USDA.
    In addition, science is looking at Western Lake Erie Basin, 
there is a lot going on here in this line. Let me try and 
unpack it here. We looked at producers in two main categories, 
what is the health of your soils? Are you gaining carbon or 
losing carbon, the two main factors. And we looked at what is 
your level of conservation stewardship, high level of 
conservation stewardship or low level of stewardship? 
Interestingly, just looking at corn yield, the difference 
between folks that had high levels of soil health, they are 
gaining carbon, versus producers that were losing carbon, those 
guys, in terms of corn yield, had about 15 percent higher corn 
yield per acre, those guys with healthy soils, than producers 
that had unhealthy soils. You are getting a boost in yield, but 
importantly, in terms of phosphorus application, anywhere from 
40 to 50 percent less phosphorus applied per year, resulting 
in--if you look at loss, upwards of 90 percent less phosphorus 
loss per acre, per year. You are getting a 15 percent boost in 
corn, you are applying a lot less fertilizers, you are saving 
\1/2\ of your fertilizer bill, and you are losing 90 percent 
less phosphorus per acre. That, to me, is the definition of 
sustainable agriculture. You have economic sustainability, so 
your input costs are less. You are growing more corn, and you 
are protecting the waters of the local rivers and ultimately, 
Lake Erie.
    But for us, what is next beyond targeting in small scale 
watersheds, large basins, we really are aware that the science 
is next is we have to start being able to target within fields. 
We have to understand where are the inherent risks within a 
crop field and where are we going to apply the right practice 
in the right place.
    What you are seeing here is an example where NRCS's 
geospatial lab is able to develop these kind of maps for our 
field staffs where we look at the underlying soil profiles. 
What you see there on the left is a soil map of a farm field, 
and you can see it in the color coding the different soil 
types. And each one of the soil types has a different inherent 
capacity to both grow food and also lose both sediments and 
nutrients. And so on average, this producer applied 36 pounds 
of phosphorus per acre evenly across his farm fields. But 
again, you can see on the right hand side there on the soil 
types is a vast difference between both yield, so as low as 109 
bushel per acre on average, or as high as 217 bushel per acre 
on average, depending on the soil type. But critically, the key 
there is what was left in the field? The phosphorus was 
applied. What left the field in grain? If you have a risky 
soil, even though you may have applied on average 36 pounds, 
only 15 of those pounds are leaving in the grain. The rest are 
left in the field, potentially to leach or to be lost through 
surface loss.
    If you were to apply through using precision conservation 
techniques, it really then allows our planters to come in and 
really talk about both application of fertilizer using 
precision ag technologies, but also even talking about maybe in 
some parts of the field you don't want to even farm. Why plant?
    Let's start talking about some of the other USDA programs, 
like the Conservation Reserve Program or the easement program, 
where no matter what you do, that corner of the field, this 
inclusion, will never be profitable. Stop planting it, stop 
wasting your money on fertilizer. Let's put it into a 
conservation use.
    We are also coming up with a new tool, conservation 
planning tool. We are trying to upgrade NRCS's planning 
capacities, so we are piloting this year a new tool that we are 
calling the Resource Stewardship Evaluation. What this is, is a 
lot going on there, but basically what we are trying to bring 
to a farmer or rancher is a hiring product. We are trying to 
say what is your level of stewardship for your soils? What is 
your level of stewardship for both water quality and quantity, 
air quality, and wildlife habitat? It is five basic metrics.
    NRCS has had quality planning criteria for all those 
metrics, underlying capacity of soil condition, index, your 
wind erosion, water erosion, et cetera. We have normalized all 
these different tools and metrics to give back a producer 
basically a printout of what their level of stewardship is, 
what is your baseline level of performance, and then we can 
start to run different scenarios, different options for the 
producer, and give them a plan to date. It gives them back real 
time information on what their current level of performance is, 
and then gives them real time information on what different 
options and scenarios they want to do, where they can take 
their performance.
    A real world example, this is out of New Jersey where we 
piloted this last year. You can see there on the left is a 
leased field. This is a producer that had an annual lease, a 1 
year lease and rented it from a local unit of government. And 
you can see the condition of this land was not very good, bad 
soils, highly eroded, and impacting local water supplies. We 
went out and ran the evaluation tool on his operation. You can 
see in the dark green or the lighter green where his state was, 
and he was really not meeting the NRCS recommendation levels 
for management. He was about to lose his lease. He went back to 
the local unit of government and said, ``Give me one more 
chance. I promise you I am going to do the right thing.'' He 
showed the lessor the NRCS evaluation and then what the plan to 
state was. He didn't just get a 1 year lease. The county 
actually gave him a 5 year lease. Now that land is going to be 
kept in production. He put it into a rotational beef grazing 
operation, protecting the waters, but importantly keeping this 
land in active agriculture, contributing to the local economy 
and the local food supply.
    Switching now to innovation tools, where we are going with 
our tool capacity. Through this Committee's leadership, we have 
a program called the Conservation Innovation Grants Program, 
CIG, which in my view is really the venture capital, if you 
will, of conservation where we are really taking high risk, 
high reward opportunities, providing 50/50 cost-share grants to 
far more organizations, universities, nonprofits, for-profit 
companies, all trying to advance innovative solutions, new 
tools, and approaches for conservation.
    The gentleman here is Dennis Carmen, and he is from the 
White River Irrigation District in Arkansas. He partnered up 
with a number of other farmers, as well as the Environmental 
Defense Fund, California Rights Commission, Win Walk 
International, and some other partner organizations, including 
American Carbon Registry, and what they have come up with is an 
enhanced way to grow rice. They were focused on methane 
emissions and trying to reduce methane emissions from rice 
production, but also trying to save water. And they piloted 
different management techniques, and they came up with an 
approach that would reduce methane emissions by \1/2\, a 50 
percent reduction in methane gas emissions, but then also 18 
percent water savings by maintaining or enhancing your yield in 
rice.
    They then developed a protocol which they can then go to 
California, the California Air Resources Board has its 
greenhouse gas registry, where now they have developed the 
first in the nation ag crop based protocol where now rice 
farmers, whether they are in California or Arkansas, can sell 
credits to the California Air Resources Board. It is an 
additional revenue stream for rice country. This guy is not 
only able to grow rice, he is now able to sell methane credits 
to the California Air Board.
    In Cape Cod, the Cape Cod Cranberry Growers Association, 
through CIG they have developed an online tool--it is an 
irrigation system management tool where they have centers out 
in the vines in the cranberry pond there where they are able to 
monitor in real time air temperature and different climatic 
conditions, and this is about better managing the irrigation of 
this cranberry production system. They are able to save per 
frost event, so they use sprinklers to spray the vines, much 
like wine, viticulture, you are protecting the vines during 
frost events, upwards of 9,000 gallons per acre, per frost 
event. Over the course of a growing season, this technology 
allows the producer to save upwards of 280,000 gallons per 
acre. Huge success story.
    I talked about precision conservation. We have also 
invested in a lot of precision ag conservation solutions. This 
is an example. This is called Adapt-N. It is a collaborative of 
Cornell University, Pennsylvania State University, Perdue 
University, USDA Agricultural Research Service lab, Iowa 
Soybean Association, and some other partners. And there are 
different modules that we can provide for producers where it 
gives them real time information on their application of 
nitrogen. It gives them in-season, in-field nitrogen 
application advice that takes into account climate, near real 
time weather conditions, the previous applications of manures 
and fertilizers, their soil types, their management systems. 
Ultimately, you are really trying to make each field and sub-
component of a field profitable, maxing out your profit and 
minimizing loss. In this case, loss being both money and 
nitrogen. In the early pilots, they were able to save upwards 
of 20 to 30 pounds of nitrogen per acre, while protecting and 
maintaining yield.
    Finally, soil health, as we have talked about previously, 
the Midwest Cover Crop Council in partnership with the 
Conservation Technology Information Center, CTIC, they 
developed a multi-state online tool. It is called the Cover 
Crop Selection Tool, where it is for producers in Michigan, 
Ohio, Indiana, Wisconsin, and Minnesota. You can go online. 
They have identified where their operation is, what their 
management system is, what their business objectives are, and 
the tool then recommends different cocktails of cover crop seed 
mixtures that are appropriate for their climate and a cropping 
system, but also help them apply these cover crops in a way 
that will be even more effective. And as we have talked, cover 
crops are really important and part of the overall conservation 
soil health management system.
    This is a picture of a field from Indiana. Rodney Rulon is 
the producer, and this is his field. He is part of a family 
operation where they manage in total 600,000 acres of row crop 
in Indiana. They have adopted cover crops and residue 
management systems no-till system of operation, and he believes 
he is saving over $100 an acre by using soil health management 
practices. This is saving wear and tear on his field, saving 
fuel costs, his energy costs, saving fertilizer and other input 
costs. He is saving $100 an acre a year in cash, that is over 
$600,000 a year more profit in a year for his family operation.
    We have also talked about how soil health and these cover 
crops can improve the resiliency of crop fields, and how by 
increasing the soil organic matter, it really creates--turns 
those crop fields into reservoirs where it can actually hold 
and retain water. If you look at, hypothetically, all cropland 
in the United States, if you increase the soil organic matter 
in the cropland of the United States by one percent, you are 
able then to turn those crop fields into underground 
reservoirs. You will be able to hold in those--just a one 
percent increase would increase the water holding capacity of 
the soils to hold the same amount of water that flows over 
Niagara Falls for 150 days. That is a huge amount of water.
    What we are seeing here is out of Brookings County, South 
Dakota, side by side fields. One used convention tillage on the 
right. On the left, no-till high residue management. And you 
can see after a 1" rain event, on the right you have heavy 
ponding. That producer has literally lost tons of topsoil. You 
can actually see where he has some of his beans coming up. They 
are out of the ground. On the left, the beans are looking 
really healthy, coming in. All the water has been captured and 
stored in the soils for later in the summer months when it is 
hot and humid, and that crop is going to need water.
    The CTIC I mentioned earlier and ARS went out and surveyed 
producers in the Corn Belt, and if you recall back in 2012, 
there was a really severe drought, and asked one simple 
question: Did you use a part of your rotation, cover crop or 
not? And what they got back was okay, what was the yield, no 
cover crop, with cover crop. And what you see is corn yield in 
upwards of ten to fourteen percent boost in yield just by 
adopting cover crops as part of your rotation. Which to us is 
then a signal that those producers that have cover crops that 
are protecting the soils, feeding the soils, are improving 
yield and improving their bottom lines.
    And finally, next generation partnerships. We have already 
talked, Mr. Chairman, Ms. Lujan Grisham, we have talked about 
the importance and the power of the Resource Conservation 
Partnership Program. I am really proud of NRCS's contribution 
to this, but more proud, frankly, about the robust response 
from the huge array of partners across the country. Sportsmen's 
organizations, universities, cities, counties, water utilities, 
hospitals, churches, I mean, you name it. There are over 2,000 
different partner organizations that have come forward. Many of 
them have never worked in agriculture before, and they never 
really know how to approach agriculture. They are teaming up 
with ag associations, agribusinesses, farmers and ranchers 
themselves, to put in place really exciting conservation 
solutions.
    Ms. Lujan Grisham, as you mentioned with the acequias, I am 
very happy to point out one of the examples of a project we 
already have rolling out here is the Acequias De Las Joyas, and 
this is an example that once you unlock the potential, they are 
ready to roll. And this is a partnership with the New Mexico 
Association of Conservation Districts, Interstate Stream 
Commission, they were ready to rock.
    This is on a 300 year old acequia, you can see in this case 
it is an old, rusted out, inefficient or corrugated pipe, very 
leaky, not very effective. And we have already installed--you 
can see here a welded steel pipe. We are also relining the 
ditches, the irrigation systems with concrete, making it hyper-
efficient. That means even more parciantes are going to be able 
to irrigate off this acequia simultaneously than previously, 
but also ultimately save a lot more water overall, so the 
system is going to be more successful. And this was installed 
in the end of January, so in a matter of months they were ready 
to roll and get solutions on the ground to be able to help this 
acequia for this coming growing season.
    And then in South Carolina, we have had initially a pilot 
with the U.S. Endowment for Forestry & Communities. What you 
are seeing here is the Smith family. This is Alva and Martin 
Smith in Marlboro County, South Carolina. They are third 
generation farmers, limited resource producers. They have 400 
acres, much of it is forested. And what we are doing in 
partnership with the U.S. Endowment, U.S. Forest Service, 
Center for Heirs Property, Federation of Southern Cooperatives, 
and some other partners, we are first helping families such as 
the Smith family come in and establish clear title, clear 
ownership to their lands. Once they have clear title, that 
unlocks the capacity to come work with USDA. We can them come 
in with our financial assistance program and put in place 
really effective forest management practices that are going to 
improve the health of their forest for long-term timber 
production, giving them long-term economic benefits, but in the 
meantime, giving the community water quality benefits, fire 
protection benefits, air quality benefits, and at-risk species 
benefits.
    And then finally, to me, which is really one of the 
historic partnership examples, and it is something that I hope 
they are going to be writing textbooks about, and this is 
really about how producers and a huge array of partners came 
forward and did something about the potential listing of sage-
grouse out in the West. And I know it feels like this is past, 
but it is something that is so historic and something I am 
incredibly proud of. And this is something where NRCS was 
actually just a small component of it, so in the wake of the 
candidate decision where the sage-grouse is listed as the 
potential species for listing under the Endangered Species Act, 
we launched what was then the Sage-Grouse Initiative. We had 
over 100 different partner organizations come forward and be 
part of this, so it lost the NRCS identity and became a 
partner-led--really a huge success story.
    This is a map. The green areas are inhabited sage-grouse 
range. The dark areas are what is called the priority areas for 
conservation. This was before we had a lot of really advanced 
tools. We had some pretty good tools for targeting, but we 
didn't have what we have now, what I will talk about in a 
second. What you are seeing here is then how the partnership, 
the locally led approach on this landscape targeted both 
financial systems, which are the aqua blue colored dots, and 
easements, which are the rust colored orange dots. And 100 
percent of the practices were put in place in habited range. 
Three-quarters of the practices were in the priority areas for 
conservation. The scale is unprecedented. Just in 5 years, the 
partnership put in place 4.4 million acres of sustainable 
ranching practices across the West in 11 states. Over 1,100 
producers stepped forward, volunteered, and want to be part of 
the solution.
    What is here is then a new tool we just released last week. 
It is in partnership with Google. We are bringing Google Earth 
technologies that is allowing USDA conservation districts, 
conservation organizations to use the Google Earth 
capabilities. We have different data layers. I am not going 
to--don't worry, I am not going to walk you through what is 
going on here in this slide, but basically you can both work at 
a national level, regional level, state level, county level, 
field level, where you can zoom in, for example here, looking 
at what is going on in this landscape. In this case, one of the 
main threats for sage-grouse is conifer invasion, conifer 
encroachment, where these conifer and juniper are coming in and 
invading what was then at one point sage-grouse habitat, and 
turning it into a forested canopy. It is not very good for 
livestock. Conifer are really thirsty. They soak up all the 
ground water. They change the hydrology in those mountainous 
areas and choke out the seats and springs. But it turns out 
sage-grouse don't like trees either, because of the raptor 
perches, and as soon as the conifers come in, as little as a 
four percent tree canopy cover, the grouse are gone. We can use 
this tool, zoom in, identify areas where we want to treat. In 
this case, we come in like in 2012, you can see how we worked 
with a rancher, cut out his inholdings, cleared it of the sage 
brush. That is pretty impressive. What is more impressive, 
though, is when we radio card a sage-grouse hen in Oregon and 
she flew south down in urban California for the summer, you can 
see where she hung out in the summer. This is a radio plotted 
chart showing where the sage hen spent her time, kind of on a 
shopping trip around the inholding, where apparently she read 
up on our sage-grouse initiative, sage brush initiative 
literature where, yes, she understood where she needs to go, 
where you cut out the trees, that is where I am supposed to 
hang out. She flew in and you can see how she went around and 
took advantage of the new habitat that just had recently been 
opened up, returned both for ranching, but in this case, for 
critical wildlife habitat.
    If you take this kind of success story and you multiply 
that 1,000, it is an example of how ranchers really delivered 
unprecedented solutions in this landscape on a voluntary basis, 
and it is the view for me and my colleagues at NRCS that it is 
not in spite of ranchers, it is because of the American rancher 
that we did not list the sage-grouse in September of 2015.
    Likewise, in Montana, where ranchers in Sentinel and Big 
Centennial and Big Hole Valleys, there is a fish. In this case, 
it is arctic fluvial grayling at risk. It is a candidate for 
listing in Endangered Species Act. It was down to the last 50 
mile segment of the stream, and we put in place voluntary 
conservation practices with the ranching community.
    You can see in this chart over the course of 5 years, the 
populations, depending on which subpopulation you look at, 
either increased 500 to 900 percent in 5 years. Result, not 
listed under the Endangered Species Act because of voluntary 
incentive-based conservation.
    The Oregon chub, this guy should be wearing a cape, 
actually, because he is the first fish species in American 
history not to be taken off the endangered species list because 
it went extinct, because we brought it back from the brink. 
Voluntary USDA conservation programs made this possible. It was 
down to less than the thousandth chub left in Oregon. Wetlands 
reserve practices and acres restored, but also upland water 
quality practices were put in place. Today's fish population is 
140,000 chub and growing taken off the endangered species list 
because of voluntary acts of conservation.
    This is a story of love. This is the Louisiana black bear, 
which was listed--this is actually the teddy bear that 
President Roosevelt could not bring himself to shoot because it 
was so cute and charismatic--listed as endangered. It was down 
to less than 200. It was in separated populations that were not 
connected anymore, so they didn't have the opportunity to mate. 
USDA came in and put in place over 210,000 acres of bottomland 
hardwood habitat to reconnect those populations through CRP and 
wetland reserve opportunities. Today, the populations are 
reconnected, making highways of love where these bears are now 
back to over 800 bears and growing. Proposed for de-listing 
under the Endangered Species Act because of voluntary acts of 
land owners in the Arkansas, Mississippi, and Louisiana 
regions.
    And ultimately, the Peter Rabbit, New England cottontail 
rabbit, again, because of private forestland owners in New 
England stepped forward, voluntarily put in place young forest 
restoration projects on their lands, again, DOI earlier this 
past fall decided not to list this candidate species under the 
Endangered Species Act, not in spite of private landowners, but 
because of the voluntary acts of private landowners and the 
results they delivered in their communities.
    Thank you, Mr. Chairman. I apologize for going over my time 
a little bit. Like I said, there is a lot more. This is enough 
I thought I could get away with. I appreciate your interest, 
and I am happy to answer any questions you may have. Thank you, 
sir.
    [The prepared statement of Mr. Weller follows:]

     Prepared Statement of Jason Weller, Chief, Natural Resources 
 Conservation Service, U.S. Department of Agriculture, Washington, D.C.
Science and Innovation in Natural Resources Conservation
Overview
    NRCS is focused on delivering innovative, science-based assistance 
to producers to address their natural resource objectives in balance 
with their operational goals.
Science-Based Solutions
    Cleaner, more abundant water for farmers, ranchers, their 
communities, and wildlife is possible when the right conservation 
practices are in the right places. NRCS is advancing a science-based 
approach to conservation through edge-of-field water quality 
monitoring. Edge-of-field water monitoring enables scientists and 
agricultural producers to quantify the impacts of conservation work on 
water quality.
    Through the innovative National Water Quality Initiative (NWQI), 
NRCS and partners work with producers in high-priority watersheds to 
implement voluntary conservation practices that improve water quality 
while maintaining agricultural productivity. Since 2012, USDA has 
invested more than $100 million in contracts with producers 
participating in this initiative, leading to conservation systems 
placed on almost 500,000 acres in priority watersheds. Results in NWQI 
watersheds include de-listing of streams formerly identified as 
impaired on states' 303(d) lists.
    Using science to focus conservation efforts to achieve the greatest 
benefit delivers more cost-effective results. The Conservation Effects 
Assessment Project (CEAP) is building a solid science-based foundation 
for the dialogue on conservation benefits. CEAP has demonstrated that 
conservation works, and that conservation systems applied in the most 
vulnerable areas deliver the greatest benefits. CEAP results are 
helping stewards target their conservation efforts to reduce nutrient 
and sediment losses from agricultural land.
    The Resource Stewardship Evaluation Tool (RSET) is designed to help 
producers assess how their farm or ranch is operating, the value of 
conservation already in place, and to identify areas they may want to 
improve and practices they may want to implement and the results they 
can expect. Piloted in FY 2015, RSET is already helping producers 
better manage their conservation objectives. In 2016, NRCS will expand 
the use of RSET in selected NWQI watersheds.
Innovative Tools and Technology
    NRCS invests in cultivating science though Conservation Innovation 
Grants (CIG). Since 2004, approximately $236 million has been awarded 
to over 630 national projects that have addressed a diversity of 
natural resource concerns, such as demonstrating more efficient ways to 
manage nutrients, reduce on-farm energy use, increasing irrigation 
efficiency, and accelerating the development of water quality trading 
and greenhouse gas markets.
    CIG projects are delivering a wide range of new tools and 
opportunities for conservation, from decision support tools to 
precision nutrient application and cover crop options that benefit soil 
health. Using farm bill programs, NRCS also has been accelerating 
adoption of soil health practices and helping producers advance soil 
health management and build resilience in their production systems. 
These benefits lead to greater resiliency to adverse conditions such as 
drought but also boost yields and bottom lines.
Locally Led, Partner-Driven Stewardship
    Science-based solutions and innovative tools are also supporting 
the locally led approach. NRCS is advancing innovative partner-driven 
conservation through the Regional Conservation Partnership Program 
(RCPP). Created by the 2014 Farm Bill, RCPP is a locally led 
conservation approach that is already showing results. Now in its 
second year, RCPP has demonstrated high demand, with over 2,000 
partners leading nearly 200 projects nationwide. All told, in the first 
2 years of the program, NRCS will have invested about $500 million 
while another $900 million is being brought in by partners to address 
locally defined, nationally significant natural resource issues. For 
the next round of RCPP funding, NRCS will challenge partners to 
consider environmental markets and conservation finance systems with 
agricultural opportunities.
    NRCS also is using science and innovation to drive new partnerships 
that benefit agriculture and wildlife. Consider the NRCS Working Lands 
for Wildlife (WLFW) partnership and the unprecedented voluntary 
collaboration over the past 6 years to restore public and private 
rangeland and young forests on private land. In part because of these 
voluntary efforts, the U.S. Fish and Wildlife Service has either de-
listed or taken off the candidate list six species since September 
2014--determining that these populations were now healthy enough that 
they did not warrant Federal protections under the Endangered Species 
Act (ESA).
Summary
    New science and innovative tools and technologies are helping to 
forge stronger and broader partnerships that are generating benefits 
for agriculture and the environment. Recent accomplishments demonstrate 
that the nation's farmers and ranchers can achieve production and 
operational goals in balance with the natural resource objectives that 
benefit rural communities and the nation as a whole.
                        
                        
                        
                        PowerPoint Presentation
                        
                        
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                      
                        
                        
    The Chairman. Well Chief, thank you so much, and we really 
appreciate your presentation. Congratulations for what you have 
accomplished what the Fish and Wildlife Service hasn't been 
able to do. When it comes to endangered species, you have set a 
great model there.
    I am going to take the liberty of the first 5 minutes of 
questioning.
    Chief Weller, one of the most innovative programs in my 
opinion to come along in some time is the Regional Conservation 
Partnership Program, and that was a key component of the 
House's Conservation Title. One of the main purposes of the 
program was to help producers in meeting and avoiding the need 
for national, state, and local natural resource regulatory 
requirements related to agriculture production.
    My question is straightforward. Do you think the program is 
helping producers deal with the regulatory requirements, and 
can you give us some specific examples of projects that are 
doing so?
    Mr. Weller. The short answer is yes. It is going to help 
and be tremendous, and what is really the secret of the sauce 
here is that instead of NRCS determining what is the species or 
official wildlife determining from the national office, this is 
where we are going to go work, what the program does is it 
gives local partners, local communities, local farming, 
ranching communities, forestland owners to step forward and 
say, ``You know what, we are concerned about,'' in the case of 
your question, ``regulatory impacts or risks we have in our 
area, and here is the help that we need.'' It really puts them 
in the driver's seat to design projects to meet their water 
quality or air quality or habitat concerns.
    And then it allows opportunities for other partners, 
whether private organizations, both for and nonprofit 
organizations to step forward and leverage their capacities, 
their sack of tools, their boots-on-the-ground know-how, and 
then buddy up with NRCS and go out and get after it.
    Again, coming back to the sage-grouse example, there is at 
least two RCPP projects that I am aware of, maybe three, which 
specifically calls out Endangered Species Act concerns where it 
is in Colorado, Oregon, and Nevada where we have RCPP projects 
in place that are being partner led, locally led, but it 
specifically is to address sage-grouse restoration needs. And 
again, it is because of the concerns about needing to maintain 
positive momentum to head off at the pass any cause for listing 
of the greater sage-grouse in the future. That is one example. 
There are others in the long leaf pine ecosystems of the 
Southeast where there are a lot of species, whether the red 
cockaded woodpecker--tortoise, and then there are all sorts of 
aquatic species, different mussels and fish that are at risk 
for listing also under the Endangered Species Act, and then 
specifically call out the importance of RCPP to leverage USDA 
and non-Federal investments to restore the long leaf pine 
ecosystem, for both forest product production, but also 
importantly for habitat for both at-risk and game species.
    I think at least about \1/3\, if you look at all 199 
projects, and they self-identify what the resource concerns are 
them. Off the top of my head, it is about \1/3\ of our projects 
to date where they specifically call out at-risk species 
habitat as one of the core criteria why they want this project 
to be successful.
    The Chairman. Thank you. In addition to the farmers and 
ranchers, there are some 22 million family forest owners who 
own over \1/3\ of our forests and who grow almost 50 percent of 
the wood that we use in the United States. Unlike farmers and 
ranchers, often these owners aren't actively engaged in their 
land management, and we know that if they aren't actively 
managing their land, that this can cause issues such as 
insects, invasive species, non-invasive species, disease, 
infestations, wildfire threats. What innovative approaches is 
NRCS using to reach these owners and get them involved in 
production as well as conservation?
    Mr. Weller. We talked a little bit about RCPP, but there 
are efforts also outside of that one program authority where we 
are really trying to work with State Foresters, but also non-
Federal partners. Like in this case, it could be the U.S. 
Endowment for Forestry. There is a whole collaborative of 
folks, for example, like in the long leaf pine ecosystem again, 
that are focused on restoring the health of the long leaf pine 
forests. I mentioned in New England and your forests as well 
where there is a locally-led approach, whether it is a wildlife 
organization or forestry group. They have the ongoing 
expertise. They have the people in the field that can really 
help us reach those private landowners that we may not have 
relationships with, yet.
    I am proud of our partnership, actually, with another 
Federal agency, in this case, the Forest Service. Historically, 
our agencies have sort of been ships passing in the night where 
we perhaps may not have worked as well together as we should 
have. We are now trying to be much more mindful and purposeful 
of working together on both sides of the property line, so when 
we go into a community, into a forest or a county or a 
watershed, we want to make sure if the Forest Service were 
going to go in and do wildfire treatments on their side of the 
property line, we also then get the private landowners access 
to EQIP and other financial assistance so they, too, can treat 
their forests. That whole basin is then protected and restored. 
And so we have almost over 40 projects now across the country 
where NRCS, Forest Service, State Foresters, and other partners 
are coming in, all contributing our money together, working on 
both sides of the private property line and the public property 
line to restore the health of the whole forest, treating it as 
a true forest as opposed to just different property owners.
    The Chairman. Thank you, Chief. My time has expired.
    I now recognize the gentlelady from New Mexico for 5 
minutes of questioning.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and thank you, 
Chief Weller, for your enthusiasm about the range of 
possibilities and that collaboration and voluntary efforts can 
produce real results. I really appreciate that, and I am hoping 
for the same kind of environment on looking at ways to use our 
agro-ecosystems to capture atmospheric carbon. Actually, New 
Mexico State University and one of their research scientists, 
Dr. David Johnson, has been looking at this issue very 
specifically. And so far, there are some key findings from his 
research, that the restoration of beneficial soil microbial 
communities and the relationships that they develop then with 
plants builds, in fact, healthy soils that can capture 
significant, is the operative word, significant amounts of 
carbon from the atmosphere and can also reduce the rate of 
which soil microbial communities respire this carbon.
    My understanding is that he is currently reaching out to 
EPA for an agreement to explore this biotechnology and 
recognition of the increases in soil carbon as legitimate 
carbon offsets. I am interested in hearing whether NRCS has 
been working with EPA to promote soil carbon sequestration.
    Mr. Weller. We have been working very hard on soil carbon 
sequestration. I would not say we have worked with EPA, but we 
have worked with land-grant extensions with a lot of 
stakeholders in the agricultural community, and this is really 
part of our bigger perspective on soil health, where we are 
trying to understand better the biota that live below the 
surface soil as microbes and critters that live below the 
surface, and how important they are for helping plants in both 
pulling in the carbon, but also attenuates the residue and 
basically mulch it down and transform that plant residue into 
soil organic carbon.
    And while we have a pretty good understanding of it, it is 
actually a burgeoning field. We are really partnering with a 
lot of scientists at both USDA and outside of the department, 
and the university research community to better understand 
those properties. We also have partnered with organizations to 
help, much like with the example I had on rice methane, where 
better management, for example, of pastures and grazing lands, 
how can livestock operators also take advantage of carbon 
markets. And so we have, again, through the Conservation and 
Innovation Grants Program, we have had some grants that help 
invest in that, help develop the protocols, so that if you have 
a grazing operation, how much carbon is actually being pulled 
out of the atmosphere by those pastures, by those rangeland 
vegetation, and ultimately store it in the carbon soil profile 
as carbon, soil organic carbon. And ultimately then, selling 
those credits to a carbon exchange.
    And so one of the first examples of that was in North 
Dakota in partnership with General Motors. General Motors 
actually purchased and retired tens of thousands of carbon 
credits, based on these protocols that the Conservation and 
Innovation Grants helped develop. And so this is then payments 
from General Motors that ultimately end up with grazers, so 
they are ultimately going to get additional revenue source if 
you keep those working lands working.
    Ms. Lujan Grisham. Can you give me, Chief Weller, kind of 
an idea about what the annual grant could look like? I mean, 
how much money are we spending across the country, roughly?
    Mr. Weller. Across the country? On that one example, it is 
just the initial pilot. GM didn't release how much money they 
spent on it, but it was in the millions of dollars. And 
ultimately, those ranchers are going to be getting an annuity 
payment. It is modest----
    Ms. Lujan Grisham. This is exactly what I want to hear, 
although I would encourage you to work with all Federal 
agencies so that you have the same kind of effort where we 
don't traditionally work as well as we could, certainly, in 
leveraging the Federal partnerships, taking the models that you 
have used in the community and making sure that they apply 
across all the different Federal jurisdictions.
    But I am really interested in finding a way to move 
beyond--and it is not a complaint--move beyond a pilot and 
think about programmatic aspects with some specificity and some 
tools and resources. And I have only--this always happens, Mr. 
Chairman--only 30 seconds left, but if you could follow up with 
us about some of those ideas and strategies so that this 
Committee could look at whether or not we can partner with you 
to make sure that they are available to more states and more 
communities, because I think that this is a real viable aspect 
and could really do a whole lot to reach your ultimate goal of 
healthy soil.
    So thank you very much, Chief. I appreciate it. I yield 
back with 6 seconds. Can I credit those?
    The Chairman. You can get credit for those.
    Ms. Lujan Grisham. Okay. Thank you, sir.
    The Chairman. I don't know what you will do with them, but 
you can get credit for them.
    The gentlelady yields back. I now recognize Mr. Benishek 
from Michigan, for 5 minutes.
    Mr. Benishek. I thank you, Mr. Chairman.
    Thanks, Chief Weller, for being here. I, too, think that 
this RCPP model is really the way to go, and to me, I have seen 
similar public-private partnerships do a much better job in 
delivering the service that they are trying to deliver than 
government regulators. To me, a lot of times in Washington when 
the government starts doing things from so far away, they don't 
take into account the regional and local concerns, and by 
having a public-private partnership, if it is for charitable 
works or nutrition or soil conservation, getting all the people 
involved and showing them how this is an advantage to them, 
providing leadership, that is really the way to go with all 
government, or a large majority of government services. I am 
happy that this seems to be successful.
    The question I have is now that this is started, you have 
done a couple rounds of conservation projects. How is it going? 
How have things changed since you have been there? Tell me, 
have you learned anything? Is there anything that we should do 
differently with the next farm bill, or what are some of the 
challenges that you are seeing that maybe could make us do 
something even better the next time?
    Mr. Weller. Well, what I have seen is really an evolution. 
We have done two rounds of awards, and we are actually about to 
hopefully release the announcement for the third round in the 
near future, in the next couple weeks. We feel we have really 
positive momentum, and the response from partners across the 
country have been great, so for every dollar that we could 
award into a project, a partner project and the demand was 
seven, eight-fold for that $1. It is very competitive. Which to 
me just shows that there is huge unlocked potential, untapped 
potential that really we can better harness, but people are 
also very excited. When you give them an opportunity to really 
take the lead and to design projects that work in their 
communities to your point, you are going to have much more 
enduring and a quicker success.
    So from the first round, both----
    Mr. Benishek. It is a better way of doing things than regs, 
simply regulating from Washington, as far as I can see.
    Mr. Weller. From our experience, we are inherently a 
locally-led agency, so we really take to heart, first, 
understanding what the farmgate, what that producer wants to do 
in that community, that county with the local work group wants 
to do, and what are the priorities in that state. Really that 
is our history and our culture at the agency, but it fits well 
to a point you are making, yes.
    Mr. Benishek. Can you name a particular challenge or 
problem that some producers are quoting that are making them 
hesitate to join this? Has it all been positive?
    Mr. Weller. From what I have heard, it is, but I don't want 
to overstate it is all positive. Of course, there are growing 
pains and some projects are quicker out of the gate than 
others. But, holistically, if you look at the projects, the 
overwhelming number of projects have been successful. Some 
producers, though, may be reluctant in a state like Michigan 
where they hear about this, but they are not sure who these 
partners are. They haven't heard of them, or they just don't 
want to work with--it could be they don't want to work with the 
government, they don't want to work with NRCS, or they don't 
want to work with a different partner for whatever reason. That 
may be a reluctance. And so what the program still allows the 
producer, if they don't want to work directly with the RCPP 
partnership, they can still come to the local conservation 
district and still get access to assistance directly that way.
    There are ways that the Committee has built into the 
program so that you don't necessarily have to work with the 
partnership, you can work privately as an individual as well. 
Overall, I have heard the feedback from both our staff, but 
also producers around the country. It has been positive.
    Mr. Benishek. Well do you agree with me and my assessment 
that this public-private partnership and voluntary conservation 
is a better way to conserve our land and improve production for 
farmers?
    Mr. Weller. I will say that a voluntary approach is a great 
way to do conservation.
    Mr. Benishek. All right. I will yield back the remainder of 
my time. Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    I recognize Mr. Peterson, for 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman.
    Chief, I want to talk a little bit about this P.L. 83-566 
situation. Apparently the appropriators had asked you for a 
list of projects, and you didn't get it to them for a while and 
now you have given them one. Is that part of why there wasn't 
any appropriation, because they hadn't gotten these project 
lists before, or do you know why they didn't?
    Mr. Weller. I do not know why they did not include 
appropriations for P.L. 83-566 in the 2016----
    Mr. Peterson. Do you know why the Administration didn't 
request anything in the budget?
    Mr. Weller. I don't know specifically why, but I can 
surmise. The President, to point in the 2016 budget, requested 
$200 million for P.L. 83-566, for the Watersheds Operations 
Program. Seeing that it was not successful, the Appropriations 
Committee did not appropriate any money to the program. In the 
2017 budget, the President's budget includes no money for P.L. 
83-566, but instead of taking money--in this case, $200 million 
for P.L. 83-566, for the first time what the President has 
done, not just President Obama, but a President, has not 
chipped, has not cut the farm bill conservation programs. There 
is zero cut to the EQIP Program, zero cut to Conservation 
Stewardship Program, zero cut to the easement program. It is 
the first time that has ever happened in a budget, which, easy 
to understand, Mr. Peterson, then for the budget process, they 
had to find money to make that happen. It was a decision, in 
the end, where to put that money and instead of P.L. 83-566 
where it didn't get appropriations, they decided to keep that 
money in the farm bill programs.
    Mr. Peterson. Well, we appreciate the P.L. 83-566 or the 
RCPP that was designated up from the valley there. They are 
using some of that money for planning for these P.L. 83-566 
projects, and there are 12 of them that are in process. I have 
been in a couple meetings here in the last 2 months where they 
have been working on these, but they are not in your plan here, 
so I don't know if that is because they are not completed yet 
or what. But, one of the concerns they have and I have is if 
there going to be money for these once the planning is done, 
which is going to be in a year or 2. And what is the prognosis 
for money for P.L. 83-566 going into the future, do you think, 
in terms of funding, because there is a lot on both sides of 
the border. This is what people want to use to try to help 
manage this flooding situation.
    Mr. Weller. Historically, it has been a hugely successful 
program. As you are probably aware, we helped install over 
12,000 projects and facilities around the country in 48 states, 
so it has a very proud heritage. Unfortunately, it hasn't been 
funded. We have not received appropriations for 7, 8 years. But 
if you look back at the success of these projects, it has been 
very effective. A resuscitated, renewed program would be really 
powerful, and that is, in part, why the President included it 
in his 2016 budget, but also through your leadership, it is in 
RCPP, which is why we are now having some success at least 
doing the engineering work on those facilities, peach 
facilities in the Red River Valley.
    Regarding the future, whether there is going to be future 
resources, that is up to both Congress in appropriations, and 
then for that specific project, they can reapply for the next 
phase so when we get ready for construction, they would be 
eligible to come back and reapply for RCPP funds in the future. 
It is a competitive program, but it is a great project. I can't 
guarantee, but they were successful----
    Mr. Peterson. I am moving ahead with the hopeful attitude 
that it is going to work out.
    Mr. Weller. Yes.
    Mr. Peterson. One of the other things that came up that is 
a continuing frustration is the lack of coordination between 
NRCS and the Corps, and there was a Memorandum of Understanding 
that was done between the Corps and NRCS back in 2012, and I 
thought this had all gotten worked out. And so I go to this 
meeting in January and find out that the whole thing has broken 
down and is not working. Why can't we get to a situation where 
we can have the Corps and the NRCS come to a determination? I 
thought your guy in Minnesota had it worked out that the Corps 
was going to go along with whatever NRCS came up with, and then 
I find out that she wasn't doing that. They have wasted 2 years 
screwing around with this deal, and you have another situation 
where they have been trying to get some kind of conservation 
gateway to try to get things worked out between you and FSA and 
RMA, and that is, I am not sure, working either. Can you help 
us get to a way that we can get these projects approved?
    Mr. Weller. I can't specifically speak to what is happening 
with the Corps. I can only manage what I can manage, which is 
the NRCS side of that relationship, but I hear you, and I will 
follow up with our----
    Mr. Peterson. You work with those folks, right?
    Mr. Weller. I have met with the Corps commander recently 
about that MOU from the national perspective, but as you 
understand it, it really depends on which Corps district you 
are in, and each district is different. It sounds like you need 
to do some follow-up with the Corps.
    Mr. Peterson. You understand now and hopefully people 
understand why some of us are so concerned about this Waters of 
the U.S., because if that thing goes through and we have 300 
more pages of regulations, you think we have a problem now, 
because this will just give an opportunity for everybody to not 
agree to anything.
    So anyway, whatever you can do to help us with that would 
be appreciated.
    Mr. Weller. Will do.
    Mr. Peterson. And if you can get our projects on the list, 
it would help. Okay? I yield back.
    The Chairman. The gentleman yields back.
    Mr. Allen from Georgia is recognized, for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thank you, Chief, 
for joining us. Obviously, you are very proud of the things you 
have done and thank you for your presentation. Obviously the 
improvement you made in a lot of these properties is pretty 
amazing.
    One of the things that you talked about how the working 
relationship that you have with farmers and ranchers, and how 
it has proven to be a great benefit to conservation. About \1/
3\ of our forests, about 50 percent of the wood in the U.S. is 
owned by owners that aren't actively engaged in land 
management. And we know if they are not actively engaged in 
this process, that problems can happen like insects, diseases, 
infestations, any wildlife threats, and that sort of thing.
    What is NRCS using to reach these owners and get them 
involved in the production, as well as conservation?
    Mr. Weller. Trying to identify who those non-operating land 
owners are, the absentee landlords, is a challenge for us and 
it is really, particularly on the conservation stewardship 
side, to your point, when they are not there on the land it is 
hard to know year to year what is actually happening in your 
forest or in your fields.
    So we have tried some examples in some other states, not in 
the Southeast, but in the Midwest an initial try at this in 
three different states where we worked with the Farm Service 
Agency and we sent out mailers. They have lists of who the 
landlords are, and so we figured out who were the folks we 
wanted to actually touch, we hadn't heard from in a while. And 
we tried different methods, basically postcard mailings, to 
reach out to these landlords, and tried different techniques to 
try and get their interest. We actually had a pretty good 
response from folks. Once they understood that we really wanted 
to talk to them and were not there to take something and we are 
actually here to offer something, we received a pretty good 
response.
    Mr. Allen. Yes.
    Mr. Weller. But a lot of times, as you know, those 
landlords also live out of state, so it is about reconnecting 
them back to their land or their property, and then trying to 
work out--we either go through their tenant, and oftentimes 
through their tenant is the best way to reach those landlords, 
equipping them with the tools--whether it is like that resource 
stewardship evaluation I showed earlier where you empower the 
tenant to then go to the landlord and say here is what I am 
going to do for your property. I will make it even better. Or I 
would like to flip that around and also try out working with 
the landlord, do you know what happened to your property while 
you were away? Here is where your property is being managed and 
where would you like to take it?
    So trying to identify who those folks are, trying new 
techniques to get their attention, and then equipping the 
tenants with great information so they can then go talk to 
their landlord about investments maybe they can both jointly 
make to enhance the value of the property through better soil 
quality, or better forest health. We are trying a lot of 
different techniques, but it is a challenge that I will admit 
we are not yet fully up to speed on.
    Mr. Allen. What sort of impact into that group are you 
making? Is it substantial impact, or is there still a lot to 
do?
    Mr. Weller. There is still a lot to do. It has been pretty 
modest so far.
    Mr. Allen. The pine straw industry is big in my district in 
Georgia, and of course, we have over 400 potential species in 
the South to be listed on the endangered species list in the 
coming years. Well, some of our pine straw folks are a little 
concerned about this, as well as, some things that crop up from 
time to time. As far as those industries, are you working with 
the folks in that industry and what kind of things are we doing 
so those folks can continue to do business?
    Mr. Weller. Yes, we are. We are trying to work with the 
timber and the pine straw industries, understanding the 
importance for local cultural practices, but also economic 
opportunities. The best form of conservation is one that 
actually improves the bottom line of a landowner or business, 
and that is going to be the most enduring conservation 
treatment. And so it is helping, whether it is our previous 
conversation, an absentee landowner, or to the actual 
landowners who are there on site and working with the industry, 
how do you ensure the health of that forest so it can produce 
the pine straw long-term? What are the different practices, 
then we can come in to either do tree stand improvements, 
prescribe fire to ensure you are treating the undergrowth 
understory, but also ensuring the health of those forests, fire 
breaks, other practices we can put in place working with the 
industry and where to site those practices. Where are the 
priority areas that for the industry is important to restore 
the vitality of those stands? There are a lot of different ways 
we can approach it and tackle it, but yes, it is critical that 
we understand what the priorities are of industry, and if there 
are opportunities and then leverage. Does the industry know the 
contact information for a lot of those landlords, landowners, 
and they have ways to reach out to them and encourage them to 
participate in our programs in ways that we can't. It is a 
great collaborative approach.
    Mr. Allen. Good, good. I am glad to hear that. Thank you, 
Chief.
    Mr. Weller. Thank you.
    Mr. Allen. I yield back.
    The Chairman. I thank the gentleman.
    Chief, thank you so much for your leadership. One of the 
issues that citizens follow, and rightfully so, they evaluate, 
they scrutinize government. We talk a lot about programs and 
today, you have talked a lot about outcomes, and we all 
appreciate that. Measurable outcomes, in terms of what is the 
return on investment for all the work that we try to do within 
the farm bill, providing tools for you, your agency, and 
talking on behalf of all the Members that are on this 
Subcommittee, we appreciate the fact that you are a good 
steward in the work that you do, and you are looking for 
outcomes, looking to deliver outcomes, just not promulgate or 
continue business in the way we have always done it in terms of 
programs, and that is greatly appreciated.
    So thank you for being here today, and thanks for your 
continued leadership.
    Mr. Weller. Thank you very much, sir, and I hope it gives 
this Committee some comfort, but also the taxpayer comfort that 
their resources are being used wisely and well. Thank you.
    The Chairman. Thank you very much.
    I would like to welcome our next panel of witnesses to the 
table. I will give you a few minutes to get settled in, and 
then we will proceed.
    [Recess.]
    The Chairman. I want to welcome our panel, and thank you so 
much for each of you of taking the time of coming here to 
present on this topic today. It is my pleasure to introduce our 
next panel of witnesses to the table.
    We have Ms. Rachel Dawson, Senior Manager, Delaware River 
National Fish and Wildlife Foundation, Washington, D.C.; Mr. 
Frank Price, Owner of Frank and Sims Price Ranch in Sterling 
City, Texas; Mr. Rich Bowman, Director of Government Relations 
for The Nature Conservancy in Lansing, Michigan; and Mr. Kent 
Rodelius, Vice President of Agricultural Drainage Management 
Coalition in Willmar, Minnesota.
    Welcome to each of you. Witnesses are reminded that the 
Members have your written testimony, and thank you for that. We 
had that ahead of time, and remind you to limit oral 
presentations to 5 minutes. All written statements are included 
in the record.
    Ms. Dawson, please begin whenever you are ready.

          STATEMENT OF RACHEL DAWSON, SENIOR MANAGER,
           DELAWARE RIVER, NATIONAL FISH AND WILDLIFE
                  FOUNDATION, WASHINGTON, D.C.

    Ms. Dawson. Sure, thank you.
    Chairman Thompson, Ranking Member Lujan Grisham, and 
Members of the Subcommittee, as the Senior Manager for the 
Delaware River Program, thank you for the opportunity to appear 
before you today to discuss the National Fish and Wildlife 
Foundation's, NFWF's, agriculture partnerships in the Delaware 
River watershed.
    Established by Congress in 1984 to leverage public-private 
investments, NFWF currently works with 15 Federal partners and 
more than 45 corporate and foundation partners to conserve 
fish, wildlife, and their habitats. To date, we have funded 
nearly 15,500 conservation projects across all 50 states and 
U.S. territories, 900 of those alone in the last fiscal year.
    Today, I would like to share with you some of our 
innovative work with farmers, ranchers, and foresters.
    Three years ago, the William Penn Foundation of 
Philadelphia formed a partnership with NFWF, Drexel 
University's Academy of Natural Sciences, and the Open Space 
Institute to design and help implement an innovative voluntary 
initiative to improve water quality and habitat health across 
the Delaware River watershed.
    The watershed crosses four state borders and provides 
drinking water for 15 million people, including in Trenton, 
Philadelphia, Wilmington, and \1/2\ the population of New York 
City, and it provides a vital habitat for fish and wildlife and 
unparalleled recreation.
    To restore and protect these resources, the William Penn 
Foundation launched the Delaware River Watershed Initiative in 
2014 with an initial 3 year, $35 million investment, which 
targeted eight sub-watersheds for focused restoration and 
conservation. Selected through an unprecedented assessment of 
on-the-ground potential to improve water quality, these sub-
watersheds will serve as real life laboratories in which 
concentrated restoration and conservation will be strategically 
implemented, leveraged, and monitored.
    Local partners have worked together to develop plans to 
implement the initiative, and accelerate adoption of practices 
that improve and protect water quality. Chief among the 
strategies for most of these sub-watersheds is expanded NRCS 
voluntary forest management and farm conservation practices.
    One-size-fits-all conservation planning isn't an option for 
the region's diverse agriculture communities. Farms tend to be 
small, often fewer than 80 acres, and ownership is very 
complex. From the leased and rotating farmland in southern New 
Jersey to Plain Sect farmers wary of government cost-share 
programs in southeastern Pennsylvania, we have a great 
variability in landowner and producer dynamics. And despite its 
position in a notably urban corridor, the region serves as a 
smorgasbord of agriculture production. From the Garden State's 
vegetable farms, orchards, and nurseries, to Pennsylvania's 
mushrooms, dairy farms, and tobacco fields, and to New York's 
vast private forests critical for clean water, it truly has it 
all.
    As the initiative partners got to work on strategies to 
address the challenges of such variability, the launch of the 
Regional Conservation Partnership Program, RCPP, was a 
remarkably timely opportunity tailor-made to deliver expanded 
conservation with a complimentary water quality benefit. 
Additionally, it was one that was particularly responsive to 
the aforementioned diversity.
    In late 2014, NFWF in partnership with the American 
Farmland Trust and other partners was awarded a 5 year, $13 
million RCPP to address water quality through the Delaware 
Watershed Working Lands Conservation Protection Partnership. Of 
particular importance, the partnership is leveraging $17.6 
million in resources from partners for a conservation impact 
that amounts to more than $30.6 million.
    There are four main reasons why we are excited about the 
RCPP opportunity in the Delaware watershed. First, the 
partnership helps efficiently expand delivery of important farm 
bill conservation and forest management programs in the region. 
Second, we are able to increase technical assistance in 
important places by growing the capacity of both traditional 
agriculture organizations like conservation districts, and 
partner nonprofits who are honing their ability to work with 
projects and landowners. Third, and perhaps most importantly, 
RCPP affords the partnership an opportunity to work with NRCS 
to design applicant criteria and adjust ranking so that cost-
share funds are available to the projects and places that will 
have the most benefit for water quality. And finally, the RCPP 
in Delaware is an excellent example of the power of leveraging 
private and public resources to do the most good. We are able 
to help producers achieve their conservation goals, while also 
utilizing private funding to incentivize, for example, 
implementation by landowners who prefer not to use government 
funding or to test innovative methods like conservation 
vouchers, bonus payments, and higher rates of cost-share for 
implementing the highest priority practices.
    In only its first few months, the project is on its way 
towards its initial 5 year goals to work with 1,100 landowners 
to implement conservation on at least 16,750 acres and to 
improve management of 20,000 acres of working forests. This 
partnership has the potential to dramatically accelerate 
conservation and to build a stronger, more capable network 
among the agricultural communities and local nonprofits in the 
region.
    While my testimony today is focused on the Delaware River 
watershed, let me close by mentioning NFWF's numerous other 
leveraging efforts to advance voluntary conservation on working 
lands. Among them are the Monarch Butterfly Conservation Fund, 
a partnership in Kentucky with Altria to help transition 
tobacco growers to continuous no-till, and the Gulf Coast 
Migratory Bird Habitat Initiative. In the interest of time, 
those details are included in my written testimony.
    And again, Mr. Chairman and distinguished Members of this 
Subcommittee, thank you for the opportunity to appear before 
you today, and I am happy to answer any questions you may have. 
Fifteen seconds.
    [The prepared statement of Ms. Dawson follows:]

 Prepared Statement of Rachel Dawson, Senior Manager, Delaware River, 
        National Fish and Wildlife Foundation, Washington, D.C.
    Chairman Thompson, Ranking Member Lujan Grisham, and Members of the 
Subcommittee, thank you for the opportunity to appear before the 
Subcommittee on Conservation and Forestry and to provide testimony 
regarding the National Fish and Wildlife Foundation's (NFWF's) 
agriculture partnerships in the Delaware River watershed and elsewhere 
across the country.
Introduction to NFWF
    NFWF was established by Congress in 1984 to catalyze public-private 
investments to conserve fish, wildlife, and their habitats. Since our 
creation, NFWF has become one of the world's largest conservation 
grant-makers. We work with both the public- and private-sectors to 
protect and restore our nation's fish, wildlife, plants, and habitats.
    NFWF supports conservation efforts in all 50 states and U.S. 
territories. Our projects are rigorously evaluated and awarded to some 
of the nation's largest conservation organizations, as well as some of 
the smallest. We neither advocate nor litigate. Instead, NFWF 
specializes in bringing all parties to the table--individuals, 
government agencies, Tribes, nonprofit organizations, and corporations. 
Together, we protect and restore imperiled species, promote healthy 
oceans and estuaries, improve working landscapes for wildlife, advance 
sustainable fisheries, and conserve water for wildlife and people. NFWF 
currently works with 15 Federal partners and more than 45 corporate and 
foundation partners.
    In Fiscal Year 2015, NFWF funded nearly 900 conservation projects 
across the nation. The Foundation awarded $87.6 million in Federal 
funds, $449,000 in other public funds, and $38.0 million in private 
contributions, leveraged by $119.7 million in grantee match.
    Since its inception, NFWF has funded nearly 15,500 conservation 
projects, awarded $955 million in Federal funds, $857 million in non-
Federal funds, and leveraged $1.7 billion in grantee match for a total 
conservation investment of $3.5 billion.
    Today, I would like to share with you some of NFWF's long history 
of working with farmers, ranchers, and foresters. We have supported 
targeted outreach and technical assistance to farmers to accelerate the 
pace of conservation, leveraged farm bill funding with private 
investment, demonstrated on-farm benefits of conservation, and achieved 
targeted species-specific and water quality outcomes. In total, NFWF 
has leveraged more than $61.2 million of USDA's Natural Resources 
Conservation Service (NRCS) funds into over $228 million in on-the-
ground conservation.
Enhancing Voluntary Conservation in the Delaware River Watershed
Delaware River Watershed Initiative
    Three years ago, the William Penn Foundation (WPF) of Philadelphia 
formed a partnership with NFWF, the Academy of Natural Sciences (ANS) 
of Drexel University, and the Open Space Institute (OSI) to design and 
help implement an innovative voluntary initiative to improve water 
quality and habitat health across the Delaware River Watershed.
    The Delaware River has a 13,500\2\ mile watershed that crosses four 
state borders and provides drinking water for 15 million people, 
including the cities of Trenton, Philadelphia, Wilmington, and \1/2\ 
the population of New York City. At 330 miles, it also is the longest 
undammed river east of the Mississippi, providing vital habitat for 
fish and wildlife and unparalleled recreation opportunities for the 8+ 
million people who live and play in the watershed. But, like many 
watersheds across our country, communities here are also grappling with 
water quality challenges in the face of growing pressures from 
development and other stressors.
    Launched in 2014 with an initial 3 year investment of $35 million 
from the William Penn Foundation, the subsequently-named ``Delaware 
River Watershed Initiative'' (DRWI) carefully targeted and prioritized 
eight sub-watersheds for restoration and conservation investment. These 
were selected based on an assessment of the severity of current and 
potential threats to water quality, as well as the on-the-ground 
potential of local organizations to do something about it.
    These focused sub-watersheds are to serve as on-the-ground 
laboratories in which restoration and conservation will be 
strategically implemented, leveraged, and monitored.
    Seven of the eight priority sub-watersheds are dominated by private 
forests and farmland, and local partners--with support and assistance 
from NFWF, WPF, ANS, and OSI--have collaboratively developed and driven 
strategies to accelerate adoption of restoration and conservation 
practices that improve and protect water quality. Chief among the 
strategies for most of these sub-watersheds is an emphasis on expanded 
voluntary forest management and farm conservation practices in concert 
with NRCS.
Agriculture in the Delaware Watershed
    There is substantial diversity among private landowners in the 
region, often presenting a challenge to one-size-fits-all conservation 
planning. Farms tend to be small and ownership is complex. For example 
in New Jersey, food and agriculture is the third largest industry, but 
the average farm size is only 80 acres. Much of the farmed land in the 
region is leased, which necessitates engaging both farmers and 
landowners in discussions about conservation. Plain Sect farmers, who 
are less likely to participate in government cost-share programs, 
predominate in areas of southeastern Pennsylvania. In addition, there 
are a number of small operators involved in producing and supplying 
locally grown foods for direct marketing.
    Agriculture acreage is mostly in a corn/soybean rotation with 
wheat; however, there is some striking variation among producers across 
the watershed. As the Garden State moniker would suggest, vegetable 
farming is common in eastern and southern New Jersey, along with 
perennial crops like blueberries and peaches, sod, and nursery 
production. In Pennsylvania, tobacco production continues to be a 
significant cash crop. Livestock operations are spread throughout the 
region and consist mainly of small- and medium-sized dairies. Poultry 
houses are becoming more numerous in northern Berks County, and the 
surrounding area includes a sizeable number of equine operations. 
Mushroom production is a unique feature of the agricultural economy in 
Chester County, where more than \1/2\ of the mushrooms produced in the 
United States are raised.
    The upper portion of the watershed is largely private forest and is 
the source of much of the watershed's exceptionally clean water. The 
majority of family forest owners are near or past retirement age, and 
these tracts are especially vulnerable to degradation, fragmentation, 
and development. In addition, many larger forest tracts are owned by 
hunting and fishing clubs or organizations that host summer camps. 
There are high rates of seasonal use and absentee landownership.
    As the partners of the DRWI began to develop and implement 
collaborative strategies to address these challenges, the launch of the 
Regional Conservation Partnership Program (RCPP) was a remarkably 
timely opportunity tailor-made to deliver a conservation program with a 
complimentary focus on water quality. Additionally, it was one that was 
particularly responsive to the aforementioned varied landscape and 
landowner characteristics throughout the region, as well as the local 
priorities and strategies specific to each priority sub-watershed.
Delaware Watershed Working Lands Conservation Partnership
    In late 2014, NFWF, in partnership with American Farmland Trust and 
a dozen other partners, was awarded a 5 year, $13 million RCPP from 
NRCS for the Delaware Watershed Working Lands Conservation and 
Protection Partnership. Of particular importance, the Partnership is 
leveraging $17.6 million in cash and in-kind resources from partners, 
including significant match from the William Penn Foundation's 
investment in the DRWI.
    Additional collaborators and supporters of the RCPP include: Cape 
Atlantic Conservation District; Berks County Conservation District; 
Chester County Conservation District; North Jersey Resource 
Conservation and Development (RC&D); Stroud Water Research Center; 
Coalition for the Delaware River Watershed; Natural Lands Trust; The 
Land Conservancy; Partnership for the Delaware Estuary; Berks County 
Conservancy; New Jersey Water Association; Pinchot Institute for 
Conservation; Brandywine Conservancy; Wallkill River Watershed 
Management Group; Catskill Forest Association; Delaware Highlands 
Conservancy; Pennsylvania Department of Conservation and Natural 
Resources; New York State Department of Environmental Conservation; New 
Jersey Forest Service; and the American Mushroom Institute.
    This RCPP project is designed to address water quality as the 
primary resource concern in the Delaware Watershed. Secondarily, the 
project will prioritize efforts to reduce forest fragmentation and 
habitat degradation in the headwaters, and protect water quantity in 
the lower reaches of the basin, which is a growing concern as aquifers 
experience overdrafts from irrigation.
    The partnership is guided by a comprehensive approach to voluntary 
agricultural and forestland conservation at the sub-watershed scale, 
drawing on the assessment and targeting performed to establish the 
DRWI. In areas dominated by farmland, the partnership builds on the 
NRCS models for minimizing pollution at the source, and maximizing 
nature's ability to slow and filter polluted runoff (including ``Avoid, 
Control, Trap'' and the ``Four Rs'' nutrient management concept). 
Farmers can reduce polluted runoff through practices to minimize excess 
fertilizer and pesticide use, control erosion from exposed soils and 
barnyards, and treat nutrients by restoring wetlands and forested 
streamside buffers.
    In forested areas, the partnership assists landowners in developing 
and implementing forest management practices that improve forest health 
and resilience, while protecting water resources.
    Broadly, the partnership aims to improve the delivery of technical 
assistance to landowners by growing the capacity of traditional 
agriculture organizations such as conservation districts, while also 
working with a large network of community-based nonprofits to improve 
how they work with the agricultural community to deliver voluntary 
conservation.
    For example, the partnership is supporting new technical assistance 
staff in three conservation districts in Pennsylvania and New Jersey, 
as well as at the North Jersey RC&D. These positions will specifically 
reduce the bottleneck in implementing cost-shared conservation by 
focusing on whole farm conservation planning and practice design. This 
support has been especially well-received in New Jersey, where 
conservation districts are largely focused on erosion and sediment 
control programs and have limited (and often overloaded) staff devoted 
to agriculture.
    Private matching funds are being used to provide training and 
funding to local land trusts and watershed organizations so that they 
can continue to build the pipeline of projects and hone their outreach 
skills. These organizations often have strong landowner relationships 
but lack knowledge and understanding about how landowners can access 
cost-share funding and which conservation practices are most cost-
effective at achieving water quality outcomes and on-farm benefits for 
any given farm. Armed with training and assessment tools, these 
organizations are key allies in accelerating the pace of conservation.
    A key element of the RCPP design that will be critical to its 
success is that the partnership is able to establish criteria used to 
rank and prioritize the allocation of cost-share funding. For the 
Delaware RCPP, projects are given priority if they occur in one of the 
DRWI priority sub-watersheds and will improve water quality. The 
partnerships also are able to give greater priority to projects 
addressing the greatest local needs. For example, in Pennsylvania, the 
local partnership has prioritized livestock operations that are within 
100-200 of a stream or wetland. And in southern New Jersey, they have 
prioritized irrigation projects that conserve water and projects that 
improve groundwater recharge for the Kirkwood-Cohansey aquifer.
    The partnership is enhanced with dedicated and flexible 
implementation funding from the WPP and other sources to incentivize 
participation by producers. The use of private funding provides 
streamlined access to implementation funding for some practices and 
encourages participation by some landowners who prefer not to use 
government funding. Private funds also are being used to test 
innovative incentives like conservation vouchers, bonus payments, and 
higher rates of cost-share in exchange for implementing the highest 
priority practices. We have found early on that the blend of this 
targeted, private investment with the RCPP is driving conservation to 
the places it is needed most and can have the greatest impact.
    In only its first few months, the project is on its way toward its 
initial 5 year goals to work with 1,100 landowners, to implement 
conservation on at least 16,750 acres, and to improve management of 
20,000 acres of working forests.
    Indeed, the Delaware Watershed Working Lands Conservation 
Partnership has the potential to dramatically accelerate conservation, 
and to build a stronger, more capable, network among the agricultural 
communities and local nonprofits in the region.
Other Successful NFWF Agriculture Partnerships
    NFWF has dozens of examples of programs across the country that 
leverage public and private funding to accelerate the pace of voluntary 
conservation on working lands. For example:
Monarch Butterfly Conservation Fund
    In 2015, NFWF formed a public-private partnership to restore 
monarch butterfly habitat. Over the past 20 years, the North American 
monarch population has plunged from one billion to less than 60 
million, due mostly to loss of critical habitat. The partnership, which 
includes the Fish and Wildlife Service, NRCS, several state Soil and 
Water Conservation Districts, the Texas Farm Bureau, and Monsanto, is 
establishing critical monarch habitat in nine central states by 
enrolling private landowners in the Conservation Stewardship Program 
and the Environmental Quality Incentives Program. In its first year, 
the Monarch Butterfly Conservation Fund awarded $3.8 million to 23 
projects that will restore over 50,000 acres of monarch habitat on 
working lands.
    NFWF has just been awarded a new $5.6 million Monarch RCPP that 
will expand the program and spread the focus.
Money, Water, and Wildlife in Kentucky's Tobacco Country
    NFWF is partnering with Kentucky NRCS and Altria to help transition 
tobacco growers to continuous no-till. Kentucky has been a leader in 
adoption of conservation tillage practices that improve soil health, 
reduce polluted runoff, and reduce fuel and labor costs associated with 
tilling; however, tobacco growers have been late to adopt no-till 
because of technological barriers. This partnership has supported 
technical assistance positions in two conservation districts, and also 
used private funding to purchase equipment that can be rented out to 
farmers who are not ready to make the significant capital investment in 
a practice that is unproven on their farm. In addition to providing 
vital private funding, Altria is able to use its relationship as a 
tobacco buyer to initiate conversations with otherwise uninterested 
landowners.
Gulf Coast Migratory Bird Habitat Initiative
    In the days following the Deepwater Horizon oil spill, NFWF and 
NRCS worked with farmers, ranchers, foresters, and private landowners 
across the Gulf states to create over 500,000 acres of wetland habitat 
for migrating waterfowl. Because of this initiative, millions of 
migrating birds had access to non-oiled or threatened habitat. This 
valuable partnership continues with rice growers and other farmers in 
the Gulf region. NRCS and NFWF have established a goal to partner on 
$100 million worth of projects over the next 5 years.
Conclusion
    Again, Mr. Chairman and distinguished Members of the Subcommittee, 
thank you for the opportunity to appear before you today to share just 
a few of the innovative conservation efforts of NFWF partners and 
grantees. I am happy to answer any questions you may have.

    The Chairman. You did fine. Thank you very much, and 
actually, you have great details on those three other programs 
that you touched on very quickly that is included in your 
written testimony, so thank you for that.
    Mr. Price, go ahead and proceed whenever you are ready.

 STATEMENT OF FRANK PRICE, OWNER, FRANK AND SIMS PRICE RANCH; 
               MEMBER, NATIONAL CATTLEMEN'S BEEF
                 ASSOCIATION, STERLING CITY, TX

    Mr. Price. My son and I operate a ranching enterprise, 
raising sheep and cattle, as well as a hunting operation based 
on Sterling City, Texas. My son and I have run the ranch, which 
dates back to 1876, with two goals in mind. The first is that 
the ranch must be operated on standalone basis, where we follow 
a strict budget and expect the operation to show an annual 
profit. Our second goal, like many other ranchers, is to leave 
the land in better condition for future generations. We serve 
to make our ranch land sustainable, which increases 
productivity, even after the land is utilized for grazing.
    Ranching in west Texas comes with its fair share of 
difficult times. However, we have been able to keep our 
operation sustainable during those hard times by utilizing 
voluntary conservation programs and applying management 
practices that enhance the operation. Drought is a common 
problem in west Texas, and it requires adaptability and forward 
thinking to maintain the resources on the ranch.
    In 2011 and 2012, we were challenged with one of the worst 
droughts in the generation, 100 consecutive days of 100 or 
higher, a total rainfall of 5\1/2\" for the year. Water was 
virtually nonexistent, wildfires were prevalent, but we were 
able to survive and remain sustainable because of our grazing 
management practices and the opportunity to work with the 
NRCS's voluntary conservation programs to improve our ranch and 
make our grasslands resilient.
    By utilizing the conservation planning of the NRCS and the 
National Grazing Lands Coalition, in addition to the 
development of innovative grazing technologies, we have 
increased perennial grasses on the ranch, improved ground 
cover, greatly reduced soil erosion due to both wind and water, 
reduced labor inputs, and ensured adequate forage for the 
livestock and wildlife populations on the ranch. Furthermore, 
by implementing these programs, we were able to keep expenses 
down by lowering feed, fuel, equipment, and labor costs, 
improving profitability of our operation.
    Through the help of NRCS and voluntary conservation 
programs, we have been able to make our ranchland more drought 
tolerant. We have achieved that by installing groundwater 
storage systems connected by an extensive pipeline system, and 
improved our grasses on the ranch with utilizing brush control. 
We use a variety of ways to reduce brush by including 
prescribed burns, mechanical, and chemical treatment. We leave 
the large trees in place to create a savannah-type range land. 
The resulting increased water availability, grass cover, and 
shading properties of the savannah landscape improves the 
welfare for the livestock, wildlife, and the ranchmen alike. It 
is truly a win/win situation.
    When wildfire came through our ranch in 2011, we had to 
rebuild miles of fencing. EQIP gave us the opportunity to 
reposition some of those fences to better adapt to our grazing 
program. One of the reasons EQIP has become popular among 
ranchers is because it is a working lands program, conservation 
programs that enhance the land's production do not limit its 
use for both the ranchers and conservation of our resources. 
CSP, Conservation Stewardship Program, is another program that 
I use to improve my land, water, and wildlife habitats.
    The biggest point I would like to make is that voluntary 
part of conservation programs is what really makes it work for 
ranchers. We have had excellent success in using these 
programs, but just because the practices work for my family 
does not mean it is right for everybody. It is important that 
we keep these programs funded to safeguard their continued 
success, and above all else, these programs must stay 
voluntary.
    I believe that economic activity and conservation go hand 
in hand, and we are always looking for new innovative 
conservation programs that will have tangible benefits for the 
environment and help improve our ranching lands. USDA's 
conservation programs have been a great asset to cattle 
producers and it is important that these programs continue to 
be implemented in the same practical, producer-friendly, 
voluntary manner for years to come. Together, we can sustain 
our country's natural resources and economic prosperity, 
ensuring our way of life for future generations.
    I appreciate the opportunity to visit to you, and look 
forward to answering any questions you might have.
    [The prepared statement of Mr. Price follows:]

 Prepared Statement of Frank Price, Owner, Frank and Sims Price Ranch; 
    Member, National Cattlemen's Beef Association, Sterling City, TX
    Good afternoon, my name is Frank Price. My son and I operate a 
ranching enterprise, raising cattle and sheep, as well as a hunting 
operation based in Sterling City, Texas. I am a member of the National 
Cattlemen's Beef Association and am testifying before you today 
representing the many cattle feeders and family ranchers, who each have 
a stake in protecting the environment. Thank you Chairman Thompson and 
Ranking Member [Lujan] Grisham for allowing me to testify today on 
voluntary conservation in agriculture.
    U.S. cattlemen own and manage considerably more land than any other 
segment of agriculture--or any other industry for that matter. 
Cattlemen graze cattle on approximately 666.4 million acres of the 
approximately 2 billion acres of the U.S. land mass. In addition, the 
acreage used to grow hay, feed grains, and food grains add millions 
more acres of land under cattlemen's stewardship and private ownership. 
Some of the biggest challenges and threats to our industry come from 
the loss of our natural resources. The livestock industry is threatened 
daily by urban encroachment, natural disasters, and government 
overreach. Since our livelihood is made on the land, through the 
utilization of our natural resources, being good stewards of the land 
not only makes good environmental sense; it is fundamental for our 
industry to remain strong. We strive to operate as environmentally 
friendly as possible, and it is through voluntary conservation programs 
that ranchers will continue to be a proud partner with the government 
to reach our environmental conservation goals.
    My son and I represent the fourth and fifth generations of the 
Price family to ranch in west Texas. Our Ranch dates back to 1876, when 
my great-grandfather began ranching at the age of eighteen. We now 
operate on 68,000 acres of land spanning across four counties in west 
Texas. My son and I run the ranch with two goals in mind: the first 
goal is that the ranch must be operated as a stand-alone business, 
where we follow a strict budget and expect the operation to show an 
annual profit. Our second goal, like many other ranchers, is to leave 
the land in better condition for future generations. The primary way we 
are able to preserve the land, as well as our ranching heritage for 
future generations, is through innovative practices and voluntary 
conservation programs.
    Ranching in west Texas comes with its fair share of difficult 
times, as it does for my fellow cattlemen across the country. However, 
we have been able to keep our operation sustainable during those hard 
times, by utilizing voluntary conservation programs and applying 
management practices that enhance the operation. Drought is a common 
problem in west Texas and it requires adaptability and forward thinking 
to maintain the resources on the ranch. In 2011 and 2012, we were 
challenged with one of the worst droughts in a generation. Water was 
virtually nonexistent and wildfires were prevalent. But we were able to 
survive, and remain sustainable, because of our grazing management 
policies and the opportunity work with the NRCS's voluntary 
conservation programs to improve our ranch and make our grasslands 
resilient. These voluntary programs were a great benefit to many 
producers who, quite frankly, would not have survived without them.
    One way we made our ranch drought-resistant is by installing above 
ground water storage systems, connected by an extensive pipeline 
system, and by recycling rubber tires as drinking water troughs. This 
ensures our livestock and wildlife have adequate and reliable water 
throughout the year.
    We graze our cattle with a carefully managed grazing plan that we 
developed with the Natural Resources Conservation Service (NRCS) and 
the National Grazing Lands Coalition (NGLC) utilizing their 
conservation planning capabilities. We have learned that when you 
utilize a flexible, planned grazing program at a conservative rate, 
leave grass cover after you move out of a pasture, and give the 
rangeland adequate recovery time, you will grow more grass with limited 
rainfall. Through cooperation with state and local agencies, in 
addition to the development of innovative grazing strategies, we have 
increased perennial grasses on the ranch, improved ground cover, 
greatly reduced soil erosion due to both wind and water, reduced labor 
inputs, and ensured adequate forage for livestock and wildlife 
populations on the ranch. Our grazing strategy is a big part of why 
we've been able to keep the ranch resilient and sustainable. 
Furthermore, by implementing these programs we are able to keep 
expenses down by lowering feed, fuel and equipment costs, thus 
improving profitability of our operation.
    Another key to improving the grasses on our ranch is brush control, 
which we often do in partnership with NRCS. We use a variety of ways to 
reduce brush including prescribed burns and mechanical treatment. We 
leave the bigger trees in to give the grasslands a savannah effect 
which also provides shade for the cattle, improving their welfare.
    We are strong advocates of prescribed fire on the rangeland. We try 
to mimic the fire conditions that nature learned to deal with hundreds 
of thousands of years ago. It is a very good tool within our tool box 
of land improvement measures. NRCS and the GLCI have provided valuable 
assistance in our burning endeavors.
    The Environmental Quality Incentive Program, or EQIP, is a cost-
share program that rewards and provides incentives to producers for 
implementing conservation practices. When wildfire came through our 
ranch in 2011, we had to rebuild miles of fencing. EQIP helped us do 
it. One of the reasons EQIP has become popular among ranchers is 
because it is a working-lands program. Conservation programs that keep 
land in production and do not limit its use are best for both the 
ranchers and conserving our resources.
    Another working lands program is the Conservation Stewardship 
Program. CSP rewards those of us that have been conservationists and 
have spent the time and money in the improving of our land, water, and 
wildlife habitats. CSP offers cattlemen the opportunity to earn 
payments for actively managing, maintaining, and expanding conservation 
activities like cover crops, rotational grazing, ecologically-based 
pest management, and buffer strips..
    NRCS personnel are a tremendous resource for the ranchmen. In 
recent years local NRCS personnel are prevented from going to training 
sessions given at the Society of Range Management and Grasslands 
Conservation Initiative meetings. We as ranchmen must have well 
informed NRCS personnel to move forward with innovative conservation 
practices. They are our first go to source of knowledge.
    The biggest point I'd like you to take away from this hearing is 
that the ``voluntary'' part of the conservation programs is what really 
makes it work for ranchers. We've had success using some of these 
conservation programs, but just because this system works for us does 
not mean it's right for everybody. It's important that we keep these 
programs funded to safeguard their continued success, and above all 
else--these programs must stay voluntary. A one-size-fits-all approach 
that accompanies top-down regulation does not work. If these programs 
were to become mandatory, the rules and regulations that farmers and 
ranchers would be subjected to would make it harder for them to utilize 
the unique conservation practices that help their individual operations 
thrive.
    I believe that economic activity and conservation go hand in hand 
and we are always looking for new, innovative conservation programs 
that will have tangible benefits for the environment, and help to 
improve our ranching lands. USDA's conservation programs have been a 
great asset to cattle producers and it is important that these programs 
continue to be implemented in the same practical, producer friendly, 
and voluntary manner for years to come to ensure that cattlemen will 
continue to have the ability to do what we do best--produce the world's 
safest, most nutritious, abundant and affordable protein while 
operating in the most environmentally friendly way possible Together we 
can sustain our country's natural resources and economic prosperity, 
ensuring the viability of our way of life for future generations. I 
appreciate the opportunity to visit with you today. Thank you for your 
time, and I welcome any questions you may have.

    The Chairman. Mr. Price, thank you so much.
    Mr. Bowman, go ahead and proceed whenever you are ready for 
5 minutes.

            STATEMENT OF RICHARD BOWMAN, DIRECTOR OF
   GOVERNMENT RELATIONS, THE NATURE CONSERVANCY, LANSING, MI

    Mr. Bowman. Great. Thank you for having me, Mr. Chairman, 
Ranking Member. I am really pleased to be here. I wasn't sure 
at 6 o'clock when it was 14 and blowing snow sideways in 
Michigan that I was going to make it, but we did get here.
    I want to give you a slightly different view on 
conservation and innovation at The Nature Conservancy. While we 
have agricultural projects all around the country and of other 
countries, I am going to focus on our work in Michigan.
    One of the challenges that we face is that conservation 
isn't cheap. It has to be paid for, we make our living based 
upon the fact that members and donors believe that we are 
making a difference, and this is why they write us a check and 
give us that money. And so we ask ourselves all the time the 
question, how much conservation is enough, and how effectively 
are we actually getting conservation done? And as a result of 
that, we have made a lot of investment in recent years in 
tools, and rather than showing slides, I actually have up on 
the screen live one of the tools that we developed that we used 
in a project in a watershed in Michigan we did jointly with 
Coca Cola. They actually provided us some private funding for 
this, and they were interested in buying water offsets for the 
water that they were using to make product, and we said well, 
you can do it by paying farmers through agricultural 
conservation. They said no, you don't understand. We don't want 
to buy conservation practices, we want to buy gallons of water. 
And so what this tool actually allowed the technician to do out 
in the field is to sit down with the producer in their living 
room, just like this, and zoom into their farm and zoom into a 
field, and fairly quickly go in and select a producer's field. 
They went, did this, and then when they selected the field, the 
tool brings up a pull down menu. This predates Google Earth, so 
this is actually based on our GIS and the NRCS's soils maps and 
topography maps, and it tells you the size of the field and the 
relative parcels, and then you just go in and tell how you are 
currently farming the field. We will say conventional row crop 
agriculture, and the producer is considering switching to no-
till, and when you tell it to calculate in about \1/2\ a second 
how much the increase or decrease in groundwater recharge will 
be as a result of that practice on that field. And this project 
was paying farmers $1.60 per thousand gallons, or something 
like that.
    And so as Mr. Price mentioned, conservation ultimately is a 
business decision for the producer, and they decided whether or 
not they were willing to make that change, based upon that 
payment. And that actually allowed us to get the fields where 
we had either the most impact, because the payment was the 
highest, or fields where well we didn't get as much impact. We 
didn't pay very much for them, and in my written testimony near 
the end, I talked about what I think the next opportunities for 
conservation are. And if there is any weakness to the way we 
practice conservation right now, it is the fact that we pay for 
practices in hopes of an outcome, instead of paying for 
outcomes regardless of the practice. And in order to pay for 
outcomes, as Chief Weller so eloquently talked about, we have 
to develop the scientific knowledge to quantify those outcomes. 
Mr. Benishek, we refer to them as those response curves. If you 
take two aspirin to make your headache go away, don't 20 
aspirin make it go away faster? Well, maybe not. Maybe there 
actually is an appropriate level of conservation to apply to a 
site. And then also really thinking about how we specifically 
deploy tools.
    The last thing I would say is in order to really magnify 
our conservation impact, we have another tool that I am not 
showing you today, because it is a little more complicated, but 
we have put it into the hands of about 120 certified crop 
advisors in the Saginaw Valley of Michigan, and they are now 
talking about conservation as part of the farmers' entire 
management program. That is an RCPP project where we then make 
a referral to NRCS for the technical and financial assistance 
for those growers who are interested in those conservation 
practices.
    And with that, I would be happy to answer any of your 
questions when we get to that portion.
    [The prepared statement of Mr. Bowman follows:]

Prepared Statement of Richard Bowman, Director of Government Relations, 
                  The Nature Conservancy, Lansing, MI
    Chairman Thompson, Ranking Member Grisham and Members of the 
Committee:

    Thank you for inviting me to testify. My name is Rich Bowman and 
for the past 10 years I have served as the Director of Government 
Relations for the Michigan Operating Unit of The Nature Conservancy 
(TNC). Prior to that, I served for 6 years as the Executive Director of 
Trout Unlimited in Michigan and started my career in policy almost 30 
years ago as a member of the Staff of the Michigan Farm Bureau. I am 
also a fourth generation farmer from Michigan and while I have not 
actively farmed for a number of years, my brother still manages the 
home farm in southern Michigan and I believe it is hard to seriously 
care about the stewardship of natural resources without taking an 
interest in agriculture and forestry.
    The Nature Conservancy is one of the world's leading conservation 
organizations, with over 3,500 staff working in every U.S. state and 35 
other countries on every continent on the planet and a mission to 
protect the broad array of natural systems upon which all life depends. 
Everyone associated with TNC takes pride in the fact that we are a non-
confrontational, solutions oriented organization. We stick strongly to 
our values, but also recognize that at the end of the day if we haven't 
solved the problem, being ``right'' about the issue has a hollow ring 
at best. We also are committed to basing our work on sound science and 
we put our money where our mouth is. Over 25% of our staff are Ph.D. 
scientists and are global leaders in their area of expertise. They 
challenge our assumptions and test our work to make sure our supporters 
resources are used on work that is replicable, meaningful and 
impactful.
    In Michigan, we have over 50 staff and manage nature preserves and 
reserves totaling over 33,000 acres including a commercial forest 
reserve in the Upper Peninsula that encompasses over 26,000 acres.
    Additionally, we have helped the State of Michigan, as well as 
Federal and private partners secure conservation on over 300,000 
additional acres through easements, acquisitions and management 
agreements. And we have worked with many private forest and farm land 
owners and managers helping them improve the health and productivity of 
their property.
    Being in the heart of the Great Lakes, TNC has had an ongoing 
interest in the health of our aquatic systems, and with agriculture 
occupying nearly 40% of Michigan's land area, how agriculture is 
practiced can have a profound effect on the health and function of our 
lakes, streams and the Great Lakes.
    Almost twenty years ago we started with a small demonstration 
project with a few growers in one watershed in central Michigan. Today 
we are leading a conservation partnership in the Saginaw Bay Region in 
Michigan that includes the watersheds of six entire rivers, and 
partners with over 100 Certified Crop Advisors, dozens of agronomy 
suppliers and purchasers of ag products and the Natural Resources 
Conservation Service to eliminate any ag related water quality concern 
that could limit the health of the aquatic organisms in those river 
systems. And that is only one of dozens of projects that TNC as a whole 
has in ag regions around North America and globally.
    The topic today is innovation and technology and I am going to 
share with you three innovations we are bringing to agricultural 
conservation and the technology we are continuing to develop to support 
those innovations. I will close with a few observations about how we 
could speed the pace of innovation through policy.
    An innovation is by definition nothing more than a new solution to 
an old problem. So let's start by defining the problems around which we 
want to innovate. They are:

  1.  How much Conservation is ``enough''?

  2.  Every field is different, but how they are different matters.

  3.  There aren't enough ``boots-on-the-ground'' helping farmers 
            practice conservation.
How Much Conservation is ``enough''?
    Many of us in the conservation community have promoted as the idea 
that we can never have too much ``conservation''. Some individuals have 
legitimately challenged this idea by saying unlimited conservation is 
akin to saying if two aspirin are good to make ones headache go away, 
then 20 must be better. The real problem here is the lack of a clear 
definition of the conservation outcome we want to achieve and the 
understanding of the ``treatment'' to achieving that outcome.
    The innovation we developed in Michigan is something we call an 
``Ecological Response Curve''. Fisheries scientists have studied fish 
response to water quality for years. And starting about 15 years ago, 
USDA through the Natural Resources Conservation Service initiated a 
program called the Conservation Effects Assessment Program (CEAP). The 
purpose of CEAP is to specifically quantify the relationship between 
conservation best management practices (BMP's) and the impact those 
BMP's have on ecological services like water quality and wildlife. By 
taking the CEAP data on a practice(s) impacts on water quality and 
aligning it with fish community response to water quality, our 
scientists could draw a relationship where they could say how many 
acres in a watershed need to be treated with specific practices to 
achieve a healthy fish community; in essence the equivalent of how many 
aspirin you need to take to make the headache go away for a watershed. 
We are currently working with USDA and other partners to complete this 
same type of analysis for the Western Lake Erie Basin.
    Our scientists were able to refine this analysis even further, in 
partnership with the CEAP scientists, by determining which water 
quality component was actually the limiting factor on the biological 
community on every stream segment in all of the watersheds in southern 
Michigan and Wisconsin. This understanding becomes key because if 
farmers are applying (and taxpayers are supporting) practices to reduce 
nitrogen, and the limiting factor is phosphorus, we can spend a lot of 
time and money and not solve our problem; to extend the medical 
analogy, aspirin is good for a headache, but maybe not very effective 
for heartburn.
Every Field is Different
    In 2007, TNC in Michigan and the Michigan Farm Bureau held a 
meeting to discuss the conservation title of the farm bill to see where 
we might work together. To our mutual surprise, we agreed on almost 
every policy concept except one, the ``targeting'' of conservation 
programs to specific watersheds or geographies. Our colleagues from the 
Farm Bureau told us it wasn't that they disagreed that problems might 
come from a specific area or that some fields contributed more to 
problems than others, it was that their members didn't feel that the 
science behind targeting was field specific enough to justify giving a 
benefit to one member over another. This conversation became the basis 
for our second innovation.
    The Institute of Water Research (IWR) at Michigan State University 
had been working with the Army Corps of Engineers to develop GIS based 
models to predict where sediment was coming from. We approached IWR and 
asked them if they could incorporate factors into the model about 
sediment and nutrient loads and build a tool where we could analyze the 
impact of specific practices on specific fields. The result is the 
Great Lakes Watershed Management System (GLWMS).
    The GLWMS is a publicly available web-based tool that allows anyone 
who wants to use it to do an analysis of the changes in groundwater 
recharge as well as sediment and nutrient loading to the nearest body 
of surface water based upon the application of one or more conservation 
best management practices. GLWMS also has the ability to aggregate the 
total of those changes on a watershed or sub-watershed basis. This 
means our ecological response curves can tell us how much we need to do 
to get a healthy fishery in a watershed and GLWMS can tell us how much 
a specific practice in a specific field will contribute, and by keeping 
track of what is done it can tell us how close we are to solving the 
problem.
    The GLWMS is currently available in four watersheds in the Great 
Lakes region, the Saginaw Basin in Michigan, The Fox River Basin in 
Wisconsin, the Western Basin of Lake Erie in Ohio, Indiana and Michigan 
and the Genesee in New York. The web address is www.iwr.msu.edu/glwms 
or simply put ``Great Lakes Watershed Management System'' into your 
favorite search engine and then go in and play around with the tool. 
While it takes a little knowledge of field based conservation 
practices, it is a relatively intuitive site.
Not Enough ``Boots-on-the-Ground''
    Early in our work in agriculture in Michigan, we funded a 
technician in a local soil and water conservation district office. 
While the technician did good work, we soon realized there was a limit 
to the number of farmers that the technician could talk to and we 
needed to increase the number of growers we could reach and influence, 
something within our organization we call project leverage. For many in 
the conservation community, the answer to this problem is a lot more 
public funding for a lot more technicians. While this works in theory, 
the reality of the financial limits of government probably don't make 
this pragmatically unlikely.
    The solution once again came from a partner, the Michigan Agri-
Business Association (MABA). MABA leadership had heard about the work 
we were doing with CEAP, ecological response curves and the GLWMS and 
they approached us and suggested we partner on a proposal under the 
newly created Regional Conservation Partnership Program. We would bring 
the defined outcomes and site specific analytic tools and they would 
bring the boots on the ground in the form of over 100 Certified Crop 
Advisors who would discuss conservation best management practices with 
their customers, which are virtually every farmer in the Saginaw Bay 
region.
    Additionally, we are trying to use the innovations we develop to 
make the ``boots-on-the-ground'' we have more efficient. We used the 
GLWMS to pre-screen and identify fields in the watershed that have the 
highest potential for positive conservation impact and provide that 
information in the form of maps to Certified Crop Advisors so they can 
pre-plan their visits with their grower customers. And we are working 
with our tool developer, IWR and NRCS to find a way to import data from 
GLWMS into the application material a grower must fill out to receive 
cost-share financial assistance from the NRCS. It is our aim to 
eventually have a system where the grower and his crop advisor could 
determine the appropriate conservation practices, apply for financial 
assistance and submit all the required documentation without the grower 
having to physically make a trip to a USDA service center.
    This project is new, just initiated over the last 11 months, and is 
an experiment in the delivery of conservation technical assistance. It 
is not without its growing pains. We are managing through the suspicion 
of the government agency field staff of the motivations of the private-
sector and their commitment to ``Getting it right'' and the reverse 
suspicion of the private-sector towards the government agency staff of 
not caring about the business realities they and their customers face 
and the bureaucracy of government. We are seeing these suspicions 
diminish as we work together to stand this project up and are confident 
that as we all learn about each other's constraints we will solve 
future problems as they arise.
One Final Innovation
    One of the weaknesses of our current voluntary conservation program 
is that they don't have a mechanism to really take into account the 
business realities of growers. The closest we have come is land set 
aside programs where growers bid to enroll land and we accept the 
lowest bidder. This gives us the most acres for the least dollars, but 
simply retiring or treating acres may not solve the environmental 
issues we wish to address. In farm country it was commonly know that 
farmers put their least productive land into conservation uses and keep 
their best land in production, which is how they maximize their return 
on investment. The problem is, some of that land that is really 
productive may also provide significant conservation benefits, but 
should we pay more if we get more.
    In our Saginaw Bay work, we have some non-NRCS money that we are 
using to incentivize farmers to put in conservation best management 
practices on a Pay for Performance basis. Using the GLWMS, we analyze 
the increase in groundwater recharge or decrease in sediment load and 
then offer a payment based on those outputs, (gallons of water or tons 
of sediment). We don't care how the farmer farms, what we care about, 
and pay for, are the result of what he does. We believe that 
calculating the unit of output and then pricing it, is in the long run 
the most cost effective way to get the conservation outcomes we need.
    Thank you for your attention, I would be happy to answer any 
questions.

    The Chairman. Okay, Mr. Bowman, thank you very much.
    I now recognize Mr. Rodelius for 5 minutes of testimony. Go 
ahead.

          STATEMENT OF KENT RODELIUS, VICE PRESIDENT,
    AGRICULTURAL DRAINAGE MANAGEMENT COALITION, WILLMAR, MN

    Mr. Rodelius. Mr. Chairman and Ranking Member, thank you 
very much for this opportunity to speak with you today. I am 
here representing the Agricultural Drainage Management 
Coalition. I spent the last 30 years in the drainage industry 
traveling the Midwest. Today, I would like to give you a brief 
overview of water table management, and tell you about some 
exciting innovations.
    So what is water table management, or subsurface tile 
drainage? There is a flash drive in your testimony I sent that 
has a video of how this really works.*
---------------------------------------------------------------------------
    * Editor's note: the video can be seen at: https://www.dropbox.com/
s/yay97i8ampancx7/Ag%20Water%20Management%20101%20.mp4?dl=0.
---------------------------------------------------------------------------
    There are three important components to a system. Commonly, 
plastic pipes called tile are installed beneath the surface of 
agricultural fields to collect water. These tile lines are 
usually buried 3 to 4 deep and spaced about 40 to 80 apart. 
These lines are laterals that then run into main that conveys 
the water to the outlet. The outlet is where the main empties 
the water out of the field, usually into a ditch.
    So why install tile? Why is this practice so widely used? 
Here are a few of the benefits.
    The number one reason is increased yield. Farmers get a 15 
to 25 percent increase in production. Tile reduces soil erosion 
and keeps the topsoil on the land. It stores water in the soil 
profile, and can reduce flooding. Farmers can plant earlier in 
the spring and harvest on time in the fall, and by managing 
their water, farmers are able to better utilize the potential 
of their seed and other inputs. It is far more economical to 
increase production through tile than to farm more acres.
    The NRCS has long held that subsurface drainage is the best 
management practice. In the 1940s through the 1970s, the USDA 
had a vigorous cost-share program to encourage farmers to 
install subsurface drainage. It is estimated that during that 
time period, more than 50 million acres were artificially 
drained. These systems are still very effective in managing the 
water table, and increasing crop production.
    The 1985 Federal Farm Bill introduced conservation 
compliance. A new swampbuster provision was adopted. Any 
producer in the farm program could no longer drain a wetland. 
Landowners have continued to install tile, but now for the 
purpose of managing water and crop production. Any current 
drainage work requires permits and is highly regulated by 
several agencies. Tile drainage is often viewed as the culprit 
for nitrogen and phosphorus in our water. You need look no 
further than the Des Moines Waterworks lawsuit. But most of 
these nutrients would move into our water bodies, even if there 
was no tile.
    Currently, there are about 300 million acres of cropland in 
the U.S. About 100 million of those acres have some type of 
artificial drainage. But are there new and better ideas we 
should consider for drainage systems?
    The ADMC was started in 2003 to find solutions and 
practices that improve and maintain agronomic production while 
producing environmental benefits. Today, we have developed new 
technology and innovations that allow us to install smart 
drainage. With these new systems, we can harvest and treat 
water before it exits the system. A variety of drainage water 
management practices can dramatically improve the environmental 
outcomes. These practices help to reduce the risk of farmers 
losing their crop, improve wildlife habitat, reduce the risk of 
flooding, and minimize the loss of nutrients. The following 
practices are smart drainage solutions. All of these 
innovations allow us to capture and treat water and remove 
significant amounts of nutrients. They are controlled drainage, 
saturated buffers, woodchip bioreactors, and sub-irrigation 
systems. We can also retrofit these practices on many acres of 
existing tile systems.
    The NRCS and the ADMC have a great working relationship. In 
2011, a Memorandum of Understanding was signed between the ADMC 
and the NRCS. This memorandum calls for the ADMC to train and 
certify technical service providers to help with the 
implementation of smart drainage technology for water 
management practices. Many of these practices are eligible for 
NRCS cost-share money.
    In conclusion, the challenge we face is to feed nine 
billion people while maintaining water quality and economic 
viability on the farm. We need to implement these innovative 
conservation practices using smart systems of drainage water 
management. These practices are proven and cost-effective in 
enhancing water quality on working lands.
    Thank you.
    [The prepared statement of Mr. Rodelius follows:]

   Prepared Statement of Kent Rodelius, Vice President, Agricultural 
               Drainage Management Coalition, Willmar, MN
    Mr. Chairman, Ranking Member, and Members of the Subcommittee, 
thank you for the opportunity to testify before you today. I am Kent 
Rodelius, Vice President of the Agricultural Drainage Water Management 
Coalition \1\ and am here today representing that group. I am also the 
Agricultural Sales Manager at Prinsco and Chair of the Associates for 
the National Land Improvement Contractors of America. The purpose of 
the ADMC is to promote public and private partnerships committed to 
improving water quality, wildlife habitat, and agronomicsthrough water 
management, research and education.
---------------------------------------------------------------------------
    \1\ The ADMC is a collaboration of agricultural producers, 
agricultural industry corporations, conservation groups and others to 
advance water quality and agricultural productivity. http://
admcoalition.com/.
---------------------------------------------------------------------------
    I have personally worked in the drainage industry traveling the 
Midwest for the past 30 years.
    It is estimated that we will soon have nine billion people in the 
world to feed. And demand will grow well beyond just population growth.
Three Indicators of World Food Demand

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Iowa State, Bruce Babcock.

    We have the land resources, technology and seed varieties to feed 
the world but without managing our water we will not be able to meet 
this challenge.
    The key question of our time is how to address this need while 
maintaining a productive environment. Can we manage the tension this 
creates, such as hypoxia zones and harmful algal blooms that are 
occurring in areas like the Gulf of Mexico, Western Lake Erie Basin, 
Chesapeake Bay and other, with challenges like that exemplified by the 
Des Moines Water Works Clean Water Act lawsuit and other environmental 
questions.
Managing Agricultural Drainage Systems
    Today I would like to share with you some history and information 
on the current status of water table management in the U.S.
    It is critical that we all have a basic understanding of water 
table management or sub-surface drainage systems.
    Agricultural drainage systems are designed to manage the water 
table below the ground surface. Commonly plastic pipe (generally called 
tile) is installed beneath the surface of agricultural lands to collect 
water. Those lines then run into a main that conveys the water out of 
the field. These mains eventually have and outlet; usually a ditch.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Egyptians and Romans are credited with some of the earliest 
drainage. Later on, the Northern Europeans developed extensive systems 
for drainage, and, as Northern Europeans immigrated to the Unites 
States they brought the practice of tiling with them.
    One of most significant development in drainage came as a result of 
the great Dust Bowl that occurred during the 1920's and 1930's. As a 
result of the vast amount of soil erosion caused by
    From the 1940's through the 1970's, USDA had a program called the 
Agricultural Conservation Program (ACP). It was administered by the 
Agricultural Stabilization and Conservation Service (now the Farm 
Service Agency) with technical assistance provided by the Soil 
Conservation Service (now the Natural Resources Conservation Service). 
During this time period USDA promoted drainage of farm land as a best 
practice to conserve soil and improve farm viability.
    This program provided cost-share that helped farmers pay the cost 
of wetland drainage. It was estimated that during this time period 
there were over 57 million acres drained. Much of this happened in the 
Midwest and great tracts of land came into production.
    So the question can be asked why all this drainage?
    The simple answer is economics and crop production.
    Here is a brief list of why people drain or manage the water table 
on their land:

  1.  Increase yields--15 to 20% increases;

  2.  Reduce soil erosion--keeps topsoil on the land;

  3.  Reduce phosphorous loss;

  4.  Store water in the soil profile--soil acts like a sponge--reduces 
            flooding;

  5.  Allow timely planting and harvest; and

  6.  Reduce salinity (salt levels) of soils.

    However, the landscape changed dramatically with the implementation 
of the 1985 Farm Bill. This introduced the ``Swampbuster'' provision 
and Conservation Compliance.
    The new Swampbuster provision effectively ended Federal incentives 
to drain wetlands and made USDA program benefits contingent on farmers 
Not draining or manipulating wetlands.
    It is important to understand that today new drainage on farmland 
in the U.S. has virtually stopped and farmers know to ask NRCS for a 
wetland determination to make sure they don't inadvertently run afoul 
of Swampbuster.
    With drainage water management, we are not talking about draining 
wetlands but rather Managing the water on land that is already drained 
and upon which it is appropriate to install modern drainage. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



          [The Extent of Farm Drainage in the United States, Figure 6. 
        Percent of STATSGO map unit drained.]

    The graphic above shows the percentage of drained land in the U.S. 
and some groups are challenging farming practices and seeking solutions 
to water quality issues. Farm groups are looking for answers as well.
    And finding answers is the reason the ADMC was formed in 2003. Our 
goal is to find solutions and practices that help maintain and improve 
agronomic production while at the same time providing environmental 
benefits.
    Of the 300 million acres of row crop lands in the continental U.S., 
approximately 100 million acres has tile drainage. As the chart below 
illustrates, in just nine states in the Upper Midwest, the NRCS 
estimates that approximately 30 million acres would benefit from DWM 
with existing technology today.
Cropland Suitable Drainage Water Management


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





          [February 1, 2012. Central National Technology Support 
        Center. Fort Worth, TX Map 2012-42.]

    Managing drainage systems encompasses a set of conservation 
practices that can be implemented on a large scale that will produce 
equally large scale beneficial results such as improvements in water 
quality, flood reduction, wildlife habitat, and, for many practices, 
increases in farm economic viability and energy efficiency.

    Highlights of projects the ADMC has been working on:

    In 2006 we received a large Conservation Innovation Grant (CIG) 
from NRCS to demonstrate and assess the benefits of Drainage Water 
Management. This practice holds water back in the soil profile with a 
control structure on the outlet. The graphics below illustrates how 
water can be managed year round to maximize both crop production and 
environmental benefits.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    We have been able to significantly reduce the nitrates in the water 
coming off these fields. Often we see a reduction of nitrates of 45% or 
more.
    We received another CIG grant in 2011 to demonstrate and quantify 
the benefits of saturated buffers to denitrify water in buffers along 
ditches and stream banks. As the Committee knows, across much of 
America we have built thousands of miles of buffers around agricultural 
fields to improve environmental outcomes. But typically only surface 
runoff runs through the buffer, most of the water circumvents the 
buffer by running through tile lines.
    Saturated buffers, a new practice developed by the Agricultural 
Research Service, directs water into the buffer where habitat is 
enhanced and water quality vastly improved.\2\ Saturated buffers will 
not work everywhere but they are one of the most cost effective tools 
available for improving water quality. I note, however, there is no on-
farm benefit, so incentives will have to come from off the farm to 
support widespread adoption of this practice. NRCS is currently 
developing a conservation practice standard for financial assistance. 
Additional incentives could come from payments for ecosystem services 
and other market mechanisms. The graphic below provides an overview of 
how a saturated buffer functions.
---------------------------------------------------------------------------
    \2\ Data generated from this project indicates that properly 
designed saturated buffers can reduce nitrate concentrations in 
discharge waters below the limits of detection with modern analytical 
techniques! That is amazing performance at low cost. The cost of 
installing a saturated buffer is simply to install a control structure 
and seep lines to distribute water into the buffer. These findings are 
fully reported in ``Demonstrate and Evaluate Saturated Buffers at Field 
Scale to Reduce Nitrates and Phosphorus from Subsurface Field Drainage 
Systems'' December 15, 2015.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In 2011 the ADMC signed a Memorandum of Understanding with the NRCS 
to train and certify Technical Service Providers to help with 
implementation of approved practice.
    In addition, we are studying and implementing practices such as Bio 
Reactors and sub-irrigation.
    Bioreactors provide the habitat for bacteria that can ``digest'' 
nitrates and strip them out of the water. They perform much like 
wetlands in this regard. They have the advantage of not taking land out 
of production.
    An operator can farm right over top of a bio reactor. Again the 
environmental return on investment is high,\3\ but, again, there are no 
on-farm benefits so outside incentives are required if this practice is 
to be widely adopted.
---------------------------------------------------------------------------
    \3\ http://web.extension.illinois.edu/bioreactors/design.cfm.
---------------------------------------------------------------------------
Schematic of Bioreactor

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Sub-irrigation uses the same tile lines that take water out of the 
fields in times of excess and provide back into the growing zone during 
times of drought. With minor modification in the design and 
installation, the same system can move water out of or into the field. 
This eliminates the need for two systems to provide irrigation or 
drainage--a substantial capital saving. But the savings go well beyond 
that. Sub-irrigation uses less than \1/2\ the amount of water of 
conventional irrigation. In addition, Sub-irrigation allows the capture 
of tail water and enables the reuse of that water (and any nutrients it 
may contain) to support crop production. Reusing the water further 
strips nutrients that previously were lost from the system; improving 
both water quality and crop production at a substantial savings to the 
producer.\4\
---------------------------------------------------------------------------
    \4\ Economics of Controlled Drainage and Sub-irrigation in Selected 
Missouri Soils, M. Nussbaum, J. Hester, J. Henggeler, ASABE Online 
Technical Library, June 10, 2013.
---------------------------------------------------------------------------
Sub-Irrigation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The NRCS has been an amazing partner on these projects. Currently 
they are writing practice standards so much of this research can be 
adapted. We are grateful for our relationship with the NRCS.
    I would briefly like to comment on a couple of additional key 
benefits of managing these systems: flood reduction and risk reduction.
    To foster flood reduction, we can manage tile lines to hold water 
and thereby store water in the soil profile. Not only can we close one 
valve to hold water in one field, but we can link these systems 
together. We can operate them remotely--and they can be operated as 
single systems or as a group. In fact, we can link not only fields, but 
whole farms and even a watershed to hold water in the soil. For 
example, a large low pressure is moving across the Midwest and 
threatens flooding--say in the Red River--we can actually hold water in 
the soil profile on hundreds--even thousands of acres. The water held 
in the soil would decrease any flooding and it can be done tomorrow; we 
don't have to wait decades for permits.
    But holding the water back in the field could cause crop damage and 
farmers would need to be compensated for any losses--perhaps through a 
downstream flood reduction fund. But it is unquestionably less 
expensive to hold the water in a field than to pump out a town and pay 
for restoration, or to build a large impoundment area that takes land 
out of production and away from agricultural producers and requires 
ongoing public management expense. With this approach, a farmer has a 
new ``commodity'' to sell and a new market.
    Finally, I call the Committee's attention to reducing risk 
associated with agricultural production. We are already embroiled in a 
conversation about the crop insurance system. But let me point out a 
bright light where there will not be controversy--and where there is 
need for action. A very substantial portion of crop loss is caused by 
either too much water or not enough. We can take huge bites out of 
these risk variables through practices such as managing tile lines and 
sub irrigation.

                              Reducing Risk
 
 
 
      Corn Loss Iowa Post WWII           Soybean Loss Iowa Post 1950
 

       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                                     
          Charts courtesy of Chad Hart, Managing Risk in Agriculture, 
        Iowa State University, June 2013.

    As you can see from these charts, over \2/3\ of corn loss has come 
from too much or too little water. Likewise these variables have 
accounted for over \1/2\ of soybean loss in the past sixty years in 
Iowa. We can foster boarder adoption of these beneficial practices, and 
reduce the burden on taxpayers and costs to producers if we adjust the 
premiums to farmers who adopt and use these practices.
    As I stated earlier--we must manage the tension to feed the growing 
world population and also provide water quality solutions.
    In these uncertain times when farm prices are unstable and 
manufacturing and skilled jobs are at risk, this again is an 
opportunity. This is American technology, developed and made right here 
in the USA. Expanded utilization of these practices will not only 
improve agricultural profitability and the environment but create 
thousands of good paying jobs that stay at home. Our export position 
will be strengthened and recovery in the Heartland expanded.
    Just a few reminders in closing:

  1.  The world's population continues to grow and must be fed.

  2.  Managing water is an essential factor in all crop production.

  3.  We have the luxury of excess water on much of our cropland.

  4.  Water quality matters to everyone.

  5.  The suite of practices know as Drainage Water Management are some 
            of the most cost efficient and effective ways to improve 
            water quality and many of them contribute to other goals 
            like expanded production, wildlife habitat and flood 
            reduction.

  6.  Water Table Management is still the ``Best Management Practice''

    Thank you for your kind attention.
                              Attachment 1
                             land and water
Vol. 59, No. 6, November/December 2015
Drainage Solutions
Innovations in Water Management To Improve Crop Productivity and Water 
        Quality
    Several key innovations are coming on line to dramatically improve 
both agricultural productivity and water quality by management of water 
flowing through tile lines. The first of these is Drainage Water 
Management where water is held in the field during the dry periods of 
the growing season and during fallow periods to improve productivity, 
and water quality. The second is Sub-Irrigation, which uses the same 
subsurface tile lines used for drainage to irrigate crops. These two 
systems can dramatically improve farm economic viability and cost-
effectively reduce nutrient loss to waterways.
    With the exceptional growth in demand for agricultural production 
to meet growing populations, higher expectations on diet, and provide 
fiber and fuel for the 21st Century we will see a massive 
intensification of agricultural lands. To achieve these objectives of 
protecting environmental quality and raising agricultural productivity 
we have to revolutionize our agricultural production systems. We simply 
have to be more efficient in our use of land and water.
Drainage Water Management Overview
    Of the 300 million acres of row crops in the Continental U.S., 
approximately 100 million acres have artificial drainage. This is not 
drainage of wetlands, but systems to reduce the amount of water in the 
field, particularly during early season for planting and initial plant 
growth, and harvest. Drainage removes water that could impede 
germination and allows the soil to warm earlier, improves field 
trafficability during wet periods and significantly increases yield. 
While there may be some environmental benefits like reduced rill 
erosion and resulting soil and phosphorous loss, these systems can 
foster increased loss of nitrogen from fields and reduce the water 
holding capacity of a watershed.
    The Natural Resources Conservation Service (NRCS) has identified 
that with existing technology, over 30 million acres in ten Midwestern 
states alone would benefit from Drainage Water Management. (DWM) DWM 
has been shown to be one of the most cost effective techniques to 
reduce nutrient loss from agricultural lands.<SUP>1</SUP> This practice 
also has the advantage of increasing yields, particularly in drought 
years.
---------------------------------------------------------------------------
    \1\ Kieser, et al., noted just the environmental benefits (not 
including agronomic benefits) to be substantial. ``Assuming a 30 
percent nitrogen load reduction, the costs for a retrofit would be 
$0.66/lb to $0.93/lb and the costs for a new installation would be 
$2.86/lb to $4.17/lb.* (xii) Jaynes, et al. (xiii) estimated at of 
$1.23/lb when the costs were applied over a 20 year lifetime at a 4% 
interest rate, and found this price to be cost-competitive with other 
nitrogen removal practices. For example, constructed wetlands cost 
$1.48/lb, fall cover crops cost $5.02/lb, and bioreactors cost $1.08/lb 
to $6.88/lb. (xiv) Advances in technology are likely to reduce the cost 
of DWM implementation.''
    * Editor's note: the references [(xii-xiv) reformatted to be 
footnotes 12-14] refer to the endnotes in the following attachment, 
Drainage Water Management Implementation Costs.
---------------------------------------------------------------------------
    DWM refers to controlling the flow of water discharged from tile 
lines to improve environmental performance and agricultural production. 
Without controls, tile lines drain water and associated materials from 
fields around the clock year round. However, drainage typically is only 
needed during part of the year, and closing off drainage during most of 
the year will significantly reduce nutrient loss and improve yields.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Automated instrumented DWM site--note how little land is 
        taken out of production.

    The golden rule of drainage management is ``Drain only what is 
necessary to ensure trafficability and crop production--and not a drop 
more.'' That means during the fallow season, tile lines should be shut 
off. This allows water to stay in the field, nitrogen uptake to occur 
by any cover crop or residual in the field and denitrification to occur 
by bacteria in the soil. In addition, after the crop has become 
established, it is prudent to reduce water (and nutrient loss) by 
selectively managing tile outflow to hold water in the field just below 
the root zone of the crop. This increases agricultural productivity and 
reduces nutrient loss.
    By managing tile lines typical nutrient loss can be reduced by 
about \1/2\. Less nutrient application is required as the nutrients are 
held in the field instead of lost through water drainage. Production is 
increased, particularly during dry years when crops are stressed by 
lack of water and nutrient availability. It's a ``win win'' for both 
the producer and the environment. Input cost can be reduced, yield 
increased and water quality protected. Secondary ecosystem service 
benefits like flood reduction, wildlife habitat improvements and 
greenhouse gas emission reductions can also be achieved.

                           Causes of Crop Loss
 
 
 
           Corn 1948-2010                       Soy 1995-2010
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                     
          Charts courtesy of Chad Hart, Managing Risk in Agriculture, 
        Iowa State University, June 2013.

    DWM does not require land to be taken out of production. An 
automated system can be monitored and managed remotely. The capital 
investment to install DWM has a life cycle of 50 to 100 years making it 
one of the best production and environmental management investments 
available. Design and installation of controlled drainage is eligible 
for financial assistance from the NRCS. This practice can be 
implemented on over 30 million acres with existing technology--as 
identified by NRCS.
Sub-Irrigation
    A new emerging practice is to use the same tile lines to also 
provide irrigation. The same infrastructure that removes water during 
times of excess can be used to put water into fields during periods of 
drought. Sub-Irrigation requires only modest changes from DWM: (1) a 
slightly upgraded tile system that allows for more close management of 
flow, and (2) a pump to raise water to the highest point in the filed 
where it can be introduced into the tile system.
    Sub-Irrigation has several advantages over conventional irrigation. 
First, it uses about \1/2\ the water. There is no evaporation as the 
water is sprayed on the crop because water is put proximate to the root 
zone where it is needed instead of on the surface. Second, Sub-
Irrigation uses less than \1/2\ the energy. Less water is moved to meet 
plant requirements so less water is pumped. In addition, the only 
energy required is to deliver water to the highest point in the field 
for introduction into the tile system. With Sub-Irrigation gravity 
rather than an ``energized'' system distributes water through the 
field. Control structures within the field (i.e., float operated valves 
that require no separate management or energy inputs) provide for even 
water distribution. Third, the same infrastructure system that removes 
excess water is used to provide irrigation removing the need for two 
water management systems.
    Sub-Irrigation can be economically implemented with existing 
technology on up to 6 million acres today. If water drained from fields 
during wet periods can be stored on site, the economics and 
environmental outcomes of this practice can be further improved. 
Nutrient rich drainage waters can be treated in wetlands or ponds and 
can be reused for irrigation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




          Schematic of sub-irrigation distribution of water into 
        cropped field. Graphic courtesy of AgriDrain.
On-Farm Benefits
    In addition to reducing environmental impact, these practices have 
significant economic benefit for producers. DWM and Sub-Irrigation can 
contribute to substantial yield increases. They can reduce input costs 
from savings in nutrient, energy and water. These practices can also 
take a huge bight out of the risks farmers face every time they plant a 
crop.
    By utilizing these water management systems, tremendous risk can be 
taken out of crop production. For example, 65% of corn loss in Iowa 
since the Second World War has been from either not enough water or so 
much that the crop is flooded out. 55% of crop loss since 1950 for 
soybeans is from the same causes.
    Another on-farm benefit is to deliver enhanced ecosystem services. 
Ecosystem services are the goods and services provided by nature like 
clean water, abundant wildlife and other valuable ``products'' that 
make life possible or increase our enjoyment of it. There is growing 
acceptance that people are willing to pay for these services and some 
markets are emerging. Hunters are commonly willing to pay for the right 
to hunt on a farm and greenhouse gas markets are operating around the 
world. There are many ecosystem services delivered by DWM and Sub-
Irrigation like flood reduction, water quality, greenhouse gas 
reduction and wildlife habitat improvements that are highly 
quantifiable and readily can enter into ecosystem service markets. As 
markets develop and are more broadly operated, ecosystem service 
products may offer a new class of assets that farmers can produce and 
derive income from.
Conclusion
    There are significant on farm benefits from installing DWM and Sub-
Irrigation including but not limited to increased agronomic production, 
reduced input costs and reduced risk. There are also significant off 
site benefits including reducing nutrient loss to waterways, reduced 
flooding and other ecosystem services. If ecosystem service markets 
develop it may be possible to for commerce in those activities to add 
to the economic viability of farm operations. Likewise, early voluntary 
action that reduces environmental impact can help reduce pressure for 
regulation and reflect positively on agricultural producers. L&W
By Dave White & Alex Echols
    Dave White, President, Ecosystem Services Exchange

    Dave was Chief of the Natural Resources Conservation Service from 
January 2009 to December 2012, where he led, directed, and managed the 
nation's largest private lands natural resource conservation 
organization. In addition to his work with NRCS, White was detailed to 
Iowa Senator Tom Harkin's office in Washington, D.C., where he helped 
craft the conservation title of the 2008 Farm Bill and to Indiana 
Senator Richard Lugar and helped develop the conservation title of the 
2002 Farm Bill.

    Alex Echols, Executive Vice President, Ecosystem Services Exchange

    Alex started his career working for the Senate for 12 years, 
writing key conservation programs like the Conservation Title of the 
farm bill and an extensive rewrite of bilateral and multilateral 
foreign aid programs. He spent 6 years at the National Fish and 
Wildlife Foundation as Deputy and then Acting Executive Director. In 
2001, he set up a consulting firm to help industry, landowners, the 
conservation community and government deliver more conservation for 
dollars invested.
                              attachment 2
Drainage Water Management Implementation Costs
Abstract

 
 
 
Joanna E. Allerhand                  Kieser & Associates
James A. Klang, P.E.                 536 E. Michigan Ave, Suite 300
Mark S. Kieser                       Kalamazoo, MI 49007
                                     www.kieser-associates.com
 

    Build-up of the current agricultural drainage network began during 
the 1870s as part of a national land reclamation policy. Since then, 
drainage has been both criticized and praised. Overall, agricultural 
drainage enabled previously marginal land to become highly productive 
and profitable farmland.\1\ However, intense drainage also contributed 
to negative environmental impacts, including substantial losses of 
wetlands and wildlife habitat.\2\
---------------------------------------------------------------------------
    \1\ Strock, J.S., P.J.A. Kleinman, K.W. King, J.A. Delgado (2010) 
Drainage water management for water quality protection. Journal of Soil 
and Water Conservation 65(6): 131A-136A; and USDA. Pavelis, G.A., Ed. 
(1987) Farm Drainage in the United States: History, Status, and 
Prospects. USDA-ERS Miscellaneous Publication Number 1455. Washington, 
D.C.
    \2\ USDA, 1987.
---------------------------------------------------------------------------
    Subsurface drainage lines act as conduits of nitrate--the mobile 
form of nitrogen--to surface waters. Under natural conditions, nitrate-
laden water passes through the soil profile and is removed, at least 
partially, through denitrification. In fields with subsurface drainage, 
tile lines intercept the water before denitrification can occur. As a 
result, subsurface drainage effluent contributes to excess nitrate 
loading to surface waters, which can lead to water quality 
impairments.\3\ Figure 1 illustrates the estimated extent of subsurface 
drainage.\4\
---------------------------------------------------------------------------
    \3\ Dinnes, D.L., D.L. Karlen, D.B. Jaynes, T.C. Kaspar, J.L. 
Hatfield (2002) Review and Interpretation: Nitrogen Management 
Strategies to Reduce Nitrate Leaching in Tile-Drained Midwestern Soils. 
Publications from USDA-ARS/UNL Faculty. Paper 263. Accessed January 31, 
2012 at http://digitialcommons.unl.edu/usdaarsfacpub/263; Mitsch, W.J., 
J.W. Day, J.W. Gilliam, P.M. Groffman, D.L. Hey, G.W. Randall, N. Wang 
(2001) Reducing nitrogen loading to the Gulf of Mexico from the 
Mississippi River Basin: Strategies to counter a persistent ecological 
problem. BioScience, 51(5): 373-388; and Randall, G.W., D.J. Mulla 
(2001) Nitrate nitrogen in surface waters as influenced by climatic 
conditions and agricultural practices. Journal of Environmental 
Quality, 30: 337-344.
    \4\ Sugg, Z. (2007) Assessing U.S. Farm Drainage: Can GIS Lead to 
Better Estimates of Subsurface Drainage Extent? World Resources 
Institute, Washington, D.C. Accessed January 20, 2012 at http://
pdf.wri.org/assessing_farm_drainage.pdf.
---------------------------------------------------------------------------
Figure 1. Subsurface Tile Drainage

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Sources: 1992 National Resources Inventory and World 
        Resources Institute.
          Extent and location of subsurface drainage, as estimated by 
        Sugg, 2007.\4\

    Nitrate export through tile lines can be reduced by implementing 
drainage water management (DWM). One such practice involves installing 
a device that controls the volume of water leaving a field. These 
controlled drainage devices can be adjusted based on the season and 
drainage needs. The control device can adjusted such that water tables 
drop prior to planting to allow the fields to become sufficiently dry 
for equipment access. Subject to producer desires and time constraints, 
the device can be used to adjust water levels throughout the growing 
season. Then after harvest, the water level is raised to minimize 
drainage during the non-cropping season.
    DWM reduces nitrate export by reducing the drainage volume from 
tile drain outlets as opposed to reducing the concentration of nitrate 
in the effluent. Most of the nitrate reductions from DWM systems occur 
when drain flow is reduced during the non-cropping season. In humid 
temperate regions, approximately 88 to 95 percent of nitrate loss 
through conventional tile drainage occurs during the fallow period.\5\ 
DWM systems allow the producer to raise the drainage outlet and bring 
the water table near the surface, thus reducing flow volume and nitrate 
losses during the non-cropping season.
---------------------------------------------------------------------------
    \5\ Drury, C.F., C.S. Tan, W.D. Reynolds, T.W. Welacky, T.O. Oloya, 
J.D. Gaynor (2009) Managing Tile Drainage, Subirrigation, and Nitrogen 
Fertilization to Enhance Crop Yields and Reduce Nitrate Loss. J. 
Environ. Qual. 38: 1193-1204.
---------------------------------------------------------------------------
    DWM implementation has been shown to substantially reduce nitrate 
losses from farm fields, thereby contributing to water quality 
improvements. Jaynes, et al.,\6\ estimated DWM could be implemented on 
11.9 million acres of cornland in the Midwest. Of these lands, 7.2 
million acres were located in the Upper Mississippi and Tennessee/Ohio 
watersheds, which drain to the Gulf of Mexico. Within these watersheds, 
DWM could reduce nitrate-N loading to the Gulf by 114.4 million 
pounds.\7\ This amounts to a reduction of 15.97 lb/acre. From 2001-
2005, an average of 1.8 billion pounds of nitrate-N per year were 
transported to the Gulf.\8\ Based on this loading estimate and the DWM 
reduction estimate of 114.4 million pounds from Jaynes, et al., 
implementing DWM on all suitable lands in the Upper Mississippi and 
Tennessee/Ohio watersheds could reduce overall nitrate loading to the 
Gulf by 6.4%.
---------------------------------------------------------------------------
    \6\ Jaynes, D.B., K.R. Thorp, D.E. James (2010) Potential Water 
Quality Impact of Drainage Water Management in the Midwest USA. 
Proceedings of the 9th International Drainage Symposium held jointly 
with CIGR and CSBE/SCGAB, June 13-16, 2010, Quebec City, Canada.
    \7\ Jaynes, et al., 2010.
    \8\ EPA (2007) Hypoxia in the Northern Gulf of Mexico: An Update by 
the EPA Science Advisory Board. EPA-SAB-08-003, USEPA, Washington, D.C.
---------------------------------------------------------------------------
    Costs of implementing DWM vary based on site characteristics, 
drainage system design, and the type of control structure installed. 
One study estimated costs could range from $65/acre for a new 
installation on a 6" main to $88/acre for a retrofit on a 12" main.\9\ 
Annualizing these costs based on a 15 year lifetime and a 19.8 acre 
treatment area, estimated costs ranged from $6.73/year on a 6" main and 
$9.08/year on a 12" main.\10\ Cooke, et al.,\11\ estimated $20-$40/acre 
for a retrofit installation and $89/acre for a new system in complex 
topography. Assuming a 30 percent nitrogen load reduction, the costs 
for a retrofit would be $0.66/lb to $0.93/lb and the costs for a new 
installation would be $2.86/lb to $4.17/lb.\12\ Jaynes, et al.,\13\ 
estimated a cost of $1.23/lb when the costs were applied over a 20 year 
lifetime at a 4% interest rate, and found this price to be cost-
competitive with other nitrogen removal practices. For example, 
constructed wetlands cost $1.48/lb, fall cover crops cost $5.02/lb, and 
bioreactors cost $1.08/lb to $6.88/lb.\14\ Advances in technology are 
likely to reduce the cost of DWM implementation.
---------------------------------------------------------------------------
    \9\ Agricultural Drainage Management Coalition [ADMC] (2011) 
Drainage Water Management for Midwestern Row Crop Agriculture. 
Conservation Innovation Grant 68-3A75-6-116 Report.
    \10\ ADMC, 2011.
    \11\ Cooke, R.A., G.R. Sands, and L.C. Brown (2005) Drainage water 
management: A practice for reducing nitrate loads from subsurface 
drainage systems. pp. 27-34. Proceedings of the Gulf hypoxia and local 
water quality concerns workshop. Sept. 26-28, 2005, Ames, Iowa. http://
water.epa.gov/type/watersheds/named/msbasin/upload/2006_8_24_msbasin_
symposia_ia_session2.pdf.
    \12\ Cooke, et al., 2005.
    \13\ Jaynes, D.B., K.R. Thorp, D.E. James (2010) Potential Water 
Quality Impact of Drainage Water Management in the Midwest USA. 
Proceedings of the 9th International Drainage Symposium held jointly 
with CIGR and CSBE/SCGAB, June 13-16, 2010, Quebec City, Canada.
    \14\ Jaynes, et al., 2010.
---------------------------------------------------------------------------
    A simple analysis was conducted to estimate the cost of DWM under 
various scenarios and assumptions. Whereas the estimated cost of $1.23/
lb from Jaynes, et al.,\15\ was for a 20 year period, the analysis 
conducted here uses similar assumptions but only considers upfront 
capital costs for a 1 year period. Jaynes, et al., determined that 7.2 
million acres of cornland in the Upper Mississippi and Tennessee/Ohio 
watersheds were suitable for DWM. Within these areas, 20 percent of DWM 
implementation would be retrofits and 80 percent would be new 
installations.\16\ A retrofit was assumed to drain 11.86 acres while a 
new installation would drain 19.77 acres. Both the new and retrofit 
practices had a unit cost of $1,100, and new installations included an 
additional cost of $32.53/acre.\17\ Applying these assumptions, a basic 
analysis indicated the total cost of implementing DWM on 7.2 million 
acres of suitable cornland in the Upper Mississippi and Tennessee/Ohio 
watersheds would be $638 million ($89/acre). The cost of retrofit 
installations would be $133 million ($93/acre) and the cost of new 
installations would be $505 million ($88/acre). The unit costs of 
nitrate-N reductions achieved by implementing DWM on all suitable 
cornland in the Upper Mississippi and Tennessee Ohio watersheds would 
be $5.81/lb for retrofits and $5.52/lb for new installations, with a 
weighted average of $5.58/lb. These are based only on initial capital 
costs and 1 year of nitrate-N reductions. The unit costs for a 5, 10, 
and 20 year project lifetime are estimated to be $1.24/pound, $0.67/
pound, and $0.37/pound, respectively, using a 4% discount rate and 
assuming operation and maintenance are 2.5% of the capital costs.
---------------------------------------------------------------------------
    \15\ Jaynes, et al., 2010.
    \16\ Personal correspondence (2012) with D.E. Jaynes confirmed that 
new and retrofit installations were assumed to have equivalent 
reduction efficiencies.
    \17\ It was not specified by Jaynes, et al., (2010) as to how they 
derived these annualized costs for nitrate reductions associated with 
DWM. As such, some of the numbers included here differ from those 
reported by Jaynes, et al., (2010). The cost analysis could be adjusted 
to include data that might better represent the current status of DWM 
technologies.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Drainage water management (DWM) can be an effective strategy for
 reducing nitrate losses from farm fields. DWM structures allow the
 producer to control the water level in the soil. When the level is
 raised during the fallow period, substantial reductions of nitrate
 loading to surface water can be achieved. The costs of DWM can be
 competitive with other management strategies.
 
    <bullet> 7.2 million acres of Midwest cornland is suitable for DWM
     in the Upper Mississippi and Tennessee/Ohio watersheds.
 
    <bullet> 1.43 million acres of this cornland (20%) could be served
     by retrofits and 5.73 million acres (80%) by new installations.
 
    <bullet> 114.4 million pounds nitrate-N could be reduced if DWM was
     implemented on all 7.2 million acres.
 
    <bullet> DWM could reduce nitrate losses by nearly 16 pounds/acre.
 
    <bullet> Total costs of implementing DWM on all 7.2 million acres
     would be $638 million ($133 million for retrofits and $505 million
     for new installations).
 
    <bullet> Retrofit costs are estimated to be $93/acre, and new
     installations are $88/acre, with a regional weighted average of $89/
     acre.
 
    <bullet> First year nitrate-N reductions from DWM using only capital
     costs are estimated to be $5.58/pound (weighted average); $5.81/
     pound (retrofits), and $5.52/pound (new installations).
 
    <bullet> Nitrate-N reduction costs for a 5, 10, and 20 year project
     lifetime are estimated to be $1.24, $0.67, and $0.37/pound,
     respectively.
------------------------------------------------------------------------
(These numbers are derived from Jaynes, D.B., K.R. Thorp, D.E. James
  (2010) Potential Water Quality Impact of Drainage Water Management in
  the Midwest USA. Proceedings of the 9th International Drainage
  Symposium held jointly with CIGR and CSBE/SCGAB, June 13-16, 2010,
  Quebec City, Canada.)

    DWM implementation costs potentially could be offset by a yield 
increase or covered through a water quality trading (WQT) program. Any 
potential yield increase would depend on the specific application of 
controlled management. A yield increase of 1.68 bushels/acre for a 6" 
main and 2.27 bushels/acre for a 12" main would offset the control 
structure expense, assuming $4/bushel corn.\18\ A WQT program could 
provide producers with a method of payment for implementing DWM. With 
the adoption of nutrient criteria, some municipal wastewater treatment 
plants (WWTPs) will be required to reduce nitrogen discharges. These 
plants could meet their regulatory compliance goals by purchasing 
nitrogen reduction credits from producers implementing DWM. In many 
cases, nitrate reductions achieved through DWM would be highly cost-
effective compared to achieving reductions through WWTP upgrades.
---------------------------------------------------------------------------
    \18\ ADMC, 2011.
---------------------------------------------------------------------------
                              Attachment 3
Managing Agricultural Drainage Flood Mitigation and Associated 
        Ecosystem Benefits
Andrew Manale, M.S., M.P.P.
What It Is and Why You Should Care
    Agricultural drainage water management (DWM) entails managing the 
flow of subsurface water on agricultural land. By reducing the volume 
of water that drains from land, temporarily storing runoff, and slowing 
or altering the timing of the flow of runoff, DWM mitigates the risk of 
downstream flooding. Retaining or retarding subsurface-flow water in 
soils at critical times of the year when soils rebuild also reduces the 
movement and discharge of nutrients that otherwise would pollute rivers 
and streams.
    Conversion of wetland or poorly drained soils to agricultural use 
or enhancement of the agricultural productivity of marginal, heavy 
``wet'' soils has generally involved installing subsurface tile 
drainage lines. These lines, as they have conventionally been 
constructed, lower the water table and drain water quickly from the 
fields to local ditches, streams and rivers, reducing the waterlogging 
of soils. Depending upon the porosity of the soil and the level of the 
watertable, they can also reduce the volume of surface runoff. By 
directing and retarding water flow through soils, they can change the 
timing of peak water flows. Depending upon the nature of storm events, 
the contour of the land, and the characteristics of the watershed, such 
changes in the timing and volume of water flows can reduce or 
contribute to downstream flood impacts.
    To farmers the advantage of subsurface drainage has been earlier 
cropping, reduced risk of root damage, and greater crop yield. 
Improving the productivity of the land for agricultural use comes at a 
societal cost when uncontrolled drainage inadvertently contributes to 
downstream water flows and leads to on-farm loss of nutrients, such as 
nitrates and phosphorus, that degrade downstream water quality. By 
regulating water flows through control of the timing and volume of its 
release and thereby retaining water from extreme events on the land, 
DWM contributes to public safety from flooding and protects water 
quality.
    Studies in the Red River Basin and elsewhere find that tile 
drainage can both mitigate or contribute to the severity of flooding. 
Whether or not tile drainage is a boon or a cost depends upon the 
ability to manage the drains. Regardless of whether or not tile 
drainage contribute marginally to downstream flow and flooding, DWM 
can, by allowing for controlled reduction or management of flow, 
provide a means for significantly reducing downstream water volume and 
increased water levels associated with flooding. Modeling and actual 
field trials suggest that properly time in-field retention of 
stormwater can reduce peak flows. In conjunction with surface berms and 
outlet gates such as ditch risers, tile drainage controls enhance the 
amount of water that can be stored per acre, in some circumstances up 
to 3 acre-feet (Manale, JSWCS 2000, 2006). Through the inclusion of 
structures, such as roads and culverts, in an overall system of water 
management, DWM can hold multiple acre-feet of floodwater for timed 
release of runoff when it is less likely to contribute to high flood 
stages.
    Drain Water Management techniques can mimic natural systems, such 
as wetlands, for slowing the flow and storing of water. Just as a 
wetland provides a suite of ecosystem services, DWM, by allowing for 
management of soil functions in agricultural systems to build soil, 
enhances the delivery of their environmental benefits, such as carbon 
and nitrogen sequestration, and ground water infiltration. Over longer 
periods of time more water is retained in the upland areas of 
watersheds and less water is available to contribute to rising 
downstream flood levels.
    Farmers themselves benefit from DWM from healthier, more drought 
resilient soils and retention of more nutrients in the soils. Healthier 
soils require fewer fertilizer inputs.
    Healthy, productive soils and less outlay for fertilizers mean more 
income for farmers.
    Yet, despite the advantages to farmers, market conditions and 
government policy alter the calculus for installing DWM. High commodity 
prices encourage farmers to expand production to marginal lands. 
Federally subsidized crop insurance shields the farmer from the risk of 
producing on marginal land. And improvements in soil quality, and hence 
economic return, accrue over many years, whereas the additional cost of 
DWM is today.
    There are a number of policy options to encourage the greater use 
of DWM. A traditional approach is to subsidize the installation of DWM 
where new tile drains are being installed or to pay for modification of 
existing tile drainage systems. Just paying to have the control devices 
installed does not however guarantee that the devices are maintained 
and used, particularly when controlled drainage and water retention on 
the land is most needed in time of flooding or high flood risks. 
Easements and land purchase can be expensive, such as what has been the 
policy in New York State to protect the city of New York's water 
supply. Newer approaches involve advanced options contracting and 
paying for ecosystem services. In the former, called options contracts 
for contingent takings, flood control authorities contract with farmers 
to manage floodwaters on their land in the likelihood of extreme 
weather (RFF, 2008). They are insured against loss of revenue should 
doing so lead to reduced yield or increased costs. In the latter, 
farmers are paid for storing floodwater on their lands as an ecosystem 
service. The more water they store, the more they earn.
    New Federal policy developments will lead to increased interest in 
DWM and temporary storage of floodwaters on agricultural lands. Under 
the Federal Water Resources Development Act of 2007, the White House 
has issued new requirements, the Principles and Requirements, that lay 
out broad principles guiding how Federal agencies develop and implement 
water investments, including the maintenance of existing projects 
(White House 2013). The new requirements specifically call for non-
structural and watershed approaches that examine how the larger 
landscape can be managed to achieve public safety and other desired 
public outcomes. DWM and temporary water retention on agricultural 
lands are consistent with these new principles for flood mitigation.
[References]
    Manale, A,. Flood and water quality management through targeted, 
temporary restoration of landscape functions. Journal of the Soil and 
Water Conservation Society, 2000.
    Manale, A. Waffles are not just for breakfast anymore. Journal of 
the Soil and Water Conservation Society, 2006.
    Resources for the Future. Options Contracts for Contingent Takings. 
2008. Benefits to farmers.
    White House, Council on Environmental Quality. Principles and 
Requirements for Federal Investments in Water Resources. March 2013.

    The Chairman. Thank you, sir. Thank you for your testimony. 
Thanks to all members of the panel for your testimony.
    I will take the liberty of the first 5 minutes of 
questioning.
    Ms. Dawson, we were talking about return on investment. I 
want to say, I have a lot of respect for my predecessors who 
had the vision to establish the National Fish and Wildlife 
Foundation. The collaborative efforts have come as a result of 
that, so thank you for your service. Plus, you have the most 
fun acronym in Washington, NFWF. What can I say?
    My question for you: much of the United States has recently 
had the worst drought in history. Fortunately, Pennsylvania has 
not seen as much damage to our agriculture production as folks, 
certainly, in the West have. What are some of the issues that 
you have seen in Pennsylvania over the past few years that have 
impacted conservation and agriculture overall?
    Ms. Dawson. It is true, Pennsylvania is quite blessed with 
something on the order of 40" of rain per year, so that is 
pretty remarkable and a great resource for agriculture in the 
state. But farmers there are certainly not immune to 
challenges. Perhaps what we see most significantly is when use 
changes. That can have a huge dynamic on hydrology and the way 
agriculture is done in the state, and we want to keep our 
working lands working, so we are very dedicated to finding ways 
to get solutions that help keep farmers on the land.
    We are also seeing issues with invasive species and new 
pests in our forestry work. This is a huge challenge that we 
are working in partnership to try to find solutions to, but 
continues to be quite a behemoth in conservation. And as we 
have talked a lot about today, managing soil health is going to 
have a lot of impact on our ability to manage that water, 
manage flooding, and also keep nutrients on the land where they 
can do the most good. We are working to implement solutions 
with our agriculture partners to be big proponents of managing 
for soil health so we can benefit both the farmer and the 
ecosystem at the same time.
    The Chairman. Thank you.
    Mr. Price, some folks have the mindset that if you take 
cattle off the land, it will be better for wildlife and 
everything will go back the way it was before we ever showed 
up. What are you thoughts on that?
    Mr. Price. I am extremely concerned to--through the 
antiquities. Of course, much land is being taken out of 
production, taking livestock off the land. A major design of 
the system over hundreds of thousands, millions of years, using 
the animal impact and fire to rejuvenate those lands. Before 
man came along, we had fire. We had droughts. We had wet 
spells. We had extreme cold. We had extreme heat, and we had 
huge herds of buffalo and of other wildlife. Can you imagine 
10,000+ historians say 50,000 to 60,000 buffalo in one herd 
coming across the landscape here in Washington, D.C. before the 
buildings were here? In modern day terms, it was devastating. 
There was nothing left. But nature designed her plants, mainly 
the grass species, to put on fresh tillers when that fire 
impacts them, when the animals bit them off, laid on them, 
stomped on them, whatever, and then it rejuvenated itself. You 
can take land that is totally out of use by wildlife or 
livestock, and the grasses get old. They get marbling, then 
they die.
    In New Mexico at Las Cruces, at the research center there 
in the 1930s, they fenced off an area, put no livestock on it. 
At the time, it was a really good light grama grass cover. 
Today, that grama grass exists as much in desert as any of the 
rest of it, due to the lack of animal impact. The animal impact 
is so important for the future of our western United States, 
and those brittle environments for certain. And so we must 
utilize our livestock, properly managed, to rejuvenate these 
lands. It is the only resource we have, because I don't think 
we can go back to pre-man conditions. I don't think anybody 
wants to move back to Europe or Asia or Africa, or wherever 
they came from, and that is the only way we can reenact those 
conditions.
    The Chairman. Thank you, Mr. Price. I am going to go ahead 
and yield back. We will get another round, but let me just say 
that, I know from the previous Subcommittee hearing that we had 
on healthy soils and other healthy soils opportunities forums I 
have been able to sit as a part of, clearly there are some 
practices that show and document how livestock helps to 
stimulate soil growth, soil production, and healthy soil. Thank 
you.
    I recognize the gentlelady from New Mexico, for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and thanks to 
the panel. We really appreciate your level of expertise and 
participation in these hearings so that we can better navigate, 
as a Committee, how we support you and support USDA to make a 
difference.
    Mr. Price, in your testimony you mentioned how helpful NRCS 
is and that the personnel there are an incredible resource for 
ranchers. And some of the New Mexico ranchers and the Tribal 
communities have expressed to me that navigating NRCS programs 
can be very difficult, especially for small producers, because 
they don't really have the staff or resources to apply for 
multiple programs or loans or grants. I have also heard that 
some producers may get a grant, so they might be smaller and 
still manage to get a grant, but because there is no technical 
assistance components to those grants, it can be very difficult 
for them to successfully implement their projects without 
further assistance from USDA. And as a user of those programs, 
can you talk to me about some ways that we can make 
conservation programs more user-friendly so that all producers, 
irrespective of their size, can benefit from the investments 
that we have worked to make available.
    Mr. Price. Some of this issue goes back to 1985. The highly 
growable lands, the NRCS personnel were sent to attend to that 
and look at it in detail. It took them away from--on us 
ranchers, I am sorry, to study these issues, to talk to us 
about them. We didn't have that expertise for land planning, 
conservation planning. That is where National Grazing Lands 
Coalition came into effect. It was formed in 1995, which was 
put in there for our grassroots, boots-on-the-ground program 
where they could help us understand the issues. I strongly 
believe that right now, NRCS needs to be able to train those 
personnel in their offices, the local offices, that can tell us 
the story, help us understand.
    Right now, a lot of people think that EQIP, NRCS is based 
on getting money from the government. That is a huge part of 
it, when we are proud to have that opportunity for that, but we 
have to have education from those NRCS personnel. One of them 
told me a while back in pretty simplistic terms. He said 
instead of giving you fish, we want to teach you how to fish. 
And that is huge.
    Ms. Lujan Grisham. I appreciate that. I agree with you that 
that sort of education and technical assistance needs to be 
driven back down to the local level and make that available.
    In addition to that partnership, what changes or 
improvements can you recommend to NRCS that better supports the 
innovation that we have talked about today for these 
conservation practices? I have put you right on the spot, that 
will teach you to be part of the panel. We want to solve all of 
these problems.
    Mr. Price. I am not known to be real quick on my feet.
    Ms. Lujan Grisham. I am sorry. We are delighted to have you 
here. Your experience makes a difference, and if there are 
things that come to you, that is very helpful to us. If there 
are things that you want to bring back to us, but it really is 
the work that you do that makes a difference in all of our 
abilities to help every producer engage in a productive way.
    Mr. Price. And that is one of the things the NRCS people I 
have worked with in the past, they have always struggled with 
why don't all of these ranchers just jump on board and take 
part in it?
    Every one of us ranchers has a different lifestyle. We have 
different goals. I love what I do, and I get excited talking 
about what I do, but a lot of ranchers, that is not their 
focus. That is not what they do. How you convince other folks 
to participate, in particularly, more intensive grazing 
programs, it is very important on how we move forward with our 
grassland. So many times we utilize that money and then we 
don't emphasize grazing management. That needs to be a huge 
part of it. We need to look at that harder as to how we 
convince people. We can't take forces on them, but if the 
Federal Government is allowing us to utilize their dollars for 
help, they should say, ``Okay, Frank, we really need you to 
focus more on grazing management so that work that you have 
done can be more productive with the future.''
    Ms. Lujan Grisham. All right. Well I appreciate that 
partnership developing aspect, so thank you for your response.
    Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields back.
    I now recognize the gentleman from Michigan, Mr. Benishek, 
for 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman.
    Mr. Bowman, hey, good to see you.
    Mr. Bowman. Good to see you.
    Mr. Benishek. I am always happy to see you the other day at 
the Great Lakes meeting that we were both there for a while 
there, and I was happy to hear about your work, this 
conservation plan, and then your example with the water table 
work that you are doing. And you also in your written testimony 
talked about this Michigan agribusiness, developing a 
partnership with them. Can you tell me more about how that 
works?
    Mr. Bowman. Sure. We have identified a suite of ten NRCS 
practices that have field-based practices that have the most 
positive impact on water quality, and we have put those into a 
tool similar to this one that allows the certified crop 
advisors when they are meeting with their customers to use that 
tool to talk about different production scenarios and how they 
can integrate conservation into those production scenarios. But 
one of the important things, and my fellow witness, Mr. Price, 
would appreciate this, is that we don't lead with the cost-
share. The conservation has to make business sense for the 
producers' operation, and then we share with them, there may be 
financial assistance available if you are interested, but you 
ought to farm this way anyway. And there are some producers 
that don't want to participate with the government because they 
have their reasons, and we actually have some private pools of 
money that we have put together where we can cost-share on 
practices using that private money, that then don't have some 
of the application requirements that you--that the producer has 
to go through with public money.
    Mr. Benishek. Well, you also mentioned in your written 
testimony about how some of the government agency people had 
some reluctance to work with the producers a little bit, too.
    Mr. Bowman. Oh, I have to be careful. I don't know if the 
Chief is still here, but the fact is is that when we first 
proposed this project and said we are going to have certified 
crop advisors talking about conservation with their producers, 
we ruffled some feathers among some of the agency folks out in 
the field because they sort of said well, that is what we do, 
and the fact is, they are the technical experts on conservation 
when it comes to applying those conservation practices. But, in 
order for us to be most effective, maybe we don't need them out 
there recruiting the growers. Maybe we need them helping the 
growers with the actual execution of the practices, and we can 
use other folks to recruit the growers.
    Yes, we are going through some growing pains with this 
project, but we are going to come out on the other side all 
right.
    Mr. Benishek. That is good to hear. You might have heard my 
comments with the Chief there. These private, nonprofit 
partnerships along with the businesses, it just works better 
because there is better communication between all the parties, 
rather than having the government make an edict about, ``You 
have to do this,'' and then they don't really know what they 
are talking about because they are not right there on this farm 
or on the land. And this approach leads to a much better 
result.
    Let me just end by asking that question. How can we make 
this better? In the farm bill, were there policies there that 
helped you out or made it better?
    Mr. Bowman. Well, there is one item and we are in 
discussion with NRCS on this right now, and this is a little 
bit of a cultural change for the agency. When they work with a 
grower, the first thing they go do is go out and develop a 
conservation plan for that farm. And that can sometimes be 
involved for both the agency and the grower to get through all 
of that. One of the things we are asking for is actually sort 
of an exemption from that conservation planning requirement, 
because in our RCPP proposal, we had to already say what the 
resource concern was we were addressing. We had to already say 
how we were going to address it, and we had to put in place a 
protocol to screen that only the fields that were actually 
addressing it would be eligible for the cost-share. And so if 
we have a grower that has never done anything with the 
government before and we are saying to them why don't you try 
doing this filter strip or this drainage control structure on 
this one spot, and then we turn around and they say well, you 
have to have the staff person come out and do this conservation 
plan and do all that kind of stuff. Maybe we can make a little 
bit easier entry for them into these programs by looking at 
some different ways to get them in.
    Mr. Benishek. All right, thank you. I am out of time. Thank 
you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Peterson, you are recognized for 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman.
    Mr. Rodelius, how much of the tile that is being put in now 
has structures associated with it?
    Mr. Rodelius. There is actually very little tile being put 
in right now that is controlled drainage, that they are 
actually holding water back in the soil profile. I think we 
estimated it at about 20,000 acres. It is really quite a 
process to get it approved and to get it into practice.
    Mr. Peterson. So, getting the structures approved is quite 
a process?
    Mr. Rodelius. The problem is there aren't enough technical 
service providers. There aren't enough people to assist farmers 
in the process.
    Mr. Peterson. And so most of the time, it is not happening?
    Mr. Rodelius. Most of the time it is not happening. I would 
agree with that.
    Mr. Peterson. And the biggest problem is it is just too 
much work, too complicated?
    Mr. Rodelius. It is a lack of understanding of the process. 
Going out and telling the story, what needs to be done and 
showing the benefits is something that we really have to get 
more involved in.
    Mr. Peterson. Is the cost-share adequate that is being 
offered for these if they do get through the process?
    Mr. Rodelius. It is an encouragement to the farmers and 
producers are really not very quick to buy into a cost-share on 
a lot of those things. The biggest thing that we could do is 
get people to do a cap on 30 year conservation activity plan so 
they could look at their farm and see what practices might be 
available, what might work on their farm. It gives them an 
overview of what could be done, and there is pretty good cost-
share money for that.
    Mr. Peterson. Up in the valley, where I have talked about 
potentially tiling a lot of that, it would probably need 
structures with it. Would the farmers tile their land and 
include a structure if we took care of it through the 
conservation partnership or something?
    Mr. Rodelius. I think that area is really well situated for 
that practice. The flatter it is, the better controlled 
drainage will work.
    Mr. Peterson. And they probably have a better understanding 
of what the reason for doing this is as well.
    Mr. Rodelius. Absolutely. They have been surface draining 
for so long, they understand how water moves.
    Mr. Peterson. But you could use the structures to 
significantly improve water quality and solve some of these 
other issues that people have if it was more widespread, is 
that not correct?
    Mr. Rodelius. Absolutely. We can dramatically reduce 
nitrogen and phosphorus in the outflow.
    Mr. Peterson. You probably aren't aware of this, but we are 
having this big controversy or discussion in Minnesota over 
these buffer strips because the governor came out and was going 
to require 16\1/2\ buffer around every ditch in Minnesota. It 
has caused quite a commotion. At one time, it was 50. You can 
imagine, 50 on every ditch.
    So with these saturated buffers, which I guess went through 
some pilot program and now is, I guess, an accepted practice, 
is that correct?
    Mr. Rodelius. There is an interim standard for saturated 
buffers.
    Mr. Peterson. In interim practice?
    Mr. Rodelius. There is no cost-share, yes, but the practice 
is being quickly adopted.
    Mr. Peterson. Are the folks that are working on the buffer 
strips in Minnesota aware of this, and is this something that 
is being considered in whatever they are doing out there?
    Mr. Rodelius. The Agricultural Drainage Management 
Coalition has held several workshops and onsite events to show 
that this practice does work and how minimally invasive it is 
to a farm practice. To put a controlled structure out on a 
buffer strip and then to put some tile lines out, the minimum 
300 up to about 1,000, we can denitrify and dig phosphorus 
out of a lot of water.
    Mr. Peterson. Well, we have, and that is my understanding, 
too, some work to do, because the people that I have talked to 
that are involved in this, some of them that are supposed to be 
knowledgeable, have no idea about this whatsoever. They just 
think this is some kind of a wacko thing that I am talking 
about. We have a lot of work to do to get people to understand.
    Mr. Rodelius. If we have that buffer initiative in 
Minnesota and it would be criminal not to put this practice on 
those buffers. It is really important that we consider that, 
that initiative that we can put buffers and saturate the 
buffer. It is a great wildlife land. There are a lot of wins on 
that end.
    Mr. Peterson. I went to the Ducks Unlimited banquet, and 
the Ducks Unlimited guy got up and made this speech about how 
we have to stop this tiling because they are destroying all the 
wetlands and the wildlife in the country. What are they still 
living in the 1940s or what is going on? How can anybody be 
making a speech like that? He is one of the leaders in Ducks 
Unlimited. Is that propaganda that they teach these people, or 
what?
    Mr. Rodelius. Well, it seems like everybody likes bad news, 
and people, not all the time, but most of the time when you see 
those type of publications, they show a big white cap slew and 
they say we have to stop wetland drainage. You haven't been 
able to drain a wetland for multiple years, but if it sells 
memberships and if I had a week to live I would want to spend a 
few days of it duck hunting.
    Mr. Peterson. We have a lot of education to do and we 
appreciate you coming out and spending some time with the 
Committee today.
    Mr. Rodelius. Thank you.
    Mr. Peterson. I yield back.
    The Chairman. I thank the gentleman, and now recognize the 
gentleman from Georgia, Mr. Allen, for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thanks to our panel 
for being here today and kind of giving us some insight on what 
we are trying to do as far as conservation is concerned.
    Mr. Price, specifically relative to your operation, there 
are people in this town that think that the cattle industry is 
bad for the environment and bad for the land, and that the 
wildlife would be far better off without the cattle industry. 
Do you have any thoughts about that, and what are we doing in 
the National Cattlemen's Beef Association to change the 
perception out there?
    Mr. Price. Yes, sir, and I am proud to discuss the animal 
impact on the land, which is extremely important. We can't go 
back to those pre-man times and have the huge herds of wildlife 
crossing the country, and as we take land out of production 
with no livestock and turn it into strictly wildlife areas, I 
can show you places in my home county that haven't had 
livestock on them for 50 and 60 years. They are turning into a 
desert. The lands right next to them, they are being ranched 
properly and proper grazing management are flourishing for our 
country. Granted, it is a drier environment than a lot of 
places, but so we have to keep that animal impact on the land 
and the only way we can do that is us livestock men, cattlemen 
through proper grazing management.
    We, in my opinion, the environmental enthusiasts I call 
them that think that we ought to just take all of the livestock 
off the land, they are polluting it, we are their best 
resource. All we have to do is tell them our story and get them 
to where they understand it. As we increase the strength of 
those grass systems and the root systems get deeper covers, we 
stop the soil erosion from wind and water. It takes that bad 
old CO<INF>2</INF> out of the air and through photosynthesis 
what does it do? It turns that carbon dioxide into oxygen, puts 
it back out in air and puts the carbon in the soil where we can 
raise more grass. It is a win/win situation and we just have to 
get practiced enough at it to move ourselves forward.
    Mr. Allen. Industry-wide, are all of our cattlemen doing it 
the right way, or is there still a lot of work to be done 
there?
    Mr. Price. We have made some huge mistakes in the past. My 
great grandfather in 1876 started his ranching enterprise. From 
records that we have, he grazed from five to six times more 
animals per acre than we can even think about doing now. He 
wasn't doing it to abuse the land. It was a pristine grass 
story you hear, and boy, this grass is going to produce 
forever. We can't hurt it. He didn't realize he was making a 
mistake. Early on, he recognized that he wanted this land to 
continue on the family. A little off the subject, he sold \1/2\ 
of his land when his children came of age to his children, and 
the way they paid for it was through the sales of the wool. It 
was a good deal for everybody, but he wanted to move on into 
the future.
    So we made mistakes. We have to admit we made those 
mistakes. I make mistakes on a daily basis. Let's learn from 
it.
    Mr. Allen. Yes, Thinking about endangered species, are you 
all having the problem with the wild hogs in Texas like we are 
having in Georgia?
    Mr. Price. They are potentially the worst environmental 
problem we have. We have to figure something out.
    Mr. Allen. We have to do something.
    Just a week ago, we had the Administrator of the 
Environmental Protection Agency sitting right there in your 
seat, and we were talking about the WOTUS rule, Waters of the 
U.S. From what you understand of that, if you had to get a 
permit due to the WOTUS rule, do you have any idea what kind of 
effect that would have on your operation, what kind of impact?
    Mr. Price. I am afraid it would decimate the livestock 
industry in our area. I have land myself that is up on the top 
country. I have some what we call plow your lakes. Once every 
10 to 15 years they will have water in them because there came 
a huge rainfall. This year, by gosh, we got water and still 
have some water in them. It rained 9\1/2\" in 1 day. But it 
scares me to think that through the Waters of the U.S. rule 
that they can come in and make us get permits for doing 
basically anything, if they let those rules perpetuate. It is a 
scary situation for us ranchmen. We need to stop that.
    Mr. Allen. Well right now the courts are in our favor, and 
we have an injunction against it, but thank you for your time, 
and all of you for your testimony, and I yield back.
    The Chairman. The gentleman yields back.
    I will take the liberty of just another round for anybody 
that would like. I will start that out with Mr. Bowman. Tell me 
about the pay for performance model TNC is using in the Saginaw 
Bay area. It sounds pretty interesting. Can you expand on this?
    Mr. Bowman. Sure. We have a calculator very similar to the 
one that I just showed you that actually estimates the amount 
of sediment and nutrient that enters the nearest surface water 
body, and that is actually important because some hills run 
down towards a river or a stream or a ditch, and other hills 
run down to a low spot in a field. We are only interested in 
the places where it actually runs into water. And in using that 
tool, we can calculate from applying field-based practices what 
the estimated reduction in tonnage is. We actually use the 
NRCS' universal soil loss equation to so that calculation, and 
then with money that we have from a couple private donors--
actually the Method Corporation that makes salt products and 
Green Mountain Coffee have both given us grants for this work. 
We put a price on that sediment, and I am sorry, I can't tell 
you what that price per ton is right now, but we say to the 
producer if you are willing to make those changes, here is how 
much we will pay for you to make those changes. It is a pretty 
simple program.
    The Chairman. Simple, but effective. Sometimes less is 
more.
    Mr. Bowman. Sometimes less is more.
    The Chairman. Yes, thank you.
    Mr. Rodelius, thank you for your testimony, in your written 
testimony and your oral statement, you have laid out a really 
strong case of what we are doing today in terms of agricultural 
drainage is different from the days in the past. The benefits 
of that, you have laid out nicely in terms of preventing 
erosion and retaining water within the soil profile, what is 
it, the ten to fifteen percent increase yield in terms of 
crops.
    You referenced the implementation of swampbuster and its 
impact on drainage management, and because of this policy, 
drainage is often used as a bad word. Can you talk more about 
the conservation benefits of proper drainage management? And 
also, you discussed a consequence. What are the consequences of 
the land when excess water is not properly managed?
    Mr. Rodelius. In the Midwest, we have the luxury of excess 
water. A lot of our soils are saturated. Much of the time when 
we want to go in and plant, what the tile system does is really 
kind of heal the land. If we have high water tables, we have a 
lot of salinity that we have that we can move out of the water, 
out of the soil by tiling. By putting control structures in we 
can hold water back in the soil profile and denitrify. One of 
the most important things about holding back some water and 
being able to utilize some water is that when that crop needs 
water badly, we don't need that soil drained that far, so if we 
can hold some water and make it available when the corn is 
silking or when the pods are filling on the beans, it is an 
incredible bump in production and it doesn't take any more 
inputs, it doesn't take any more chemicals, it doesn't take 
anything more to do that, so the upside of drainage, I have 
been doing this for over 30 years and I have yet to meet anyone 
who is sorry they tiled. It is such a wonderful and cost 
effective method of managing.
    The Chairman. It doesn't take any more acreage to get that 
increased yield for our farmers as well.
    Mr. Rodelius. Correct.
    And it is like an annuity. It is year after year after 
year.
    The Chairman. Thank you. I will yield back and recognize 
the Ranking Member. Any additional questions?
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    Ms. Dawson, you discussed how the role of your organization 
is not to advocate or litigate, but to create a collaborative, 
if you will, to bring all the parties to the table. And I am 
definitely interested in hearing more about some of the 
successful agricultural partnerships that you mentioned in your 
written testimony. The Monarch Butterfly Conservation Fund and 
the Gulf Coast Migratory Bird Habitat Initiative.
    Unfortunately, in my opinion, too many still believe that 
efforts to protect endangered and threatened species or 
species' habitats always ends up hurting farmers and ranchers, 
and prevents them from working their lands, but it is clear to 
me that farmers and ranchers are not the enemy and we should be 
enlisting them as productive partners and allies in helping us 
protect endangered species and their habitats.
    How can we eliminate this misconception that we are always 
at opposite ends of the spectrum and that we can, in fact, work 
together on these issues?
    Ms. Dawson. That is a great question. Again, we don't 
advocate, and that does make it difficult for us to play an 
active role in dispelling that myth, but we believe that by 
perpetuating our partnerships, by growing them, by increasing 
the role of partners and our voices at the table to do good 
work, we are able to get practices implemented on the ground 
that advance habitat restoration and that make for more 
resilient landscapes. And we are really able to let the work 
speak for itself.
    And by doing that and by increasing our ability to 
demonstrate what we are able to do by working in partnership 
with farmers and ranchers in the ag community, by increasing 
habitat on those lands or making it more friendly to those 
species, we are able to promote that concept in that way.
    With respect to those other geographies where we are doing 
a lot of other great work, unfortunately I am very narrow in my 
scope for my specific geography, but we would be happy to give 
you more information on those projects as well.
    Ms. Lujan Grisham. That would be great. I mean, we all--and 
I know that it is just the two of us right now, which I 
appreciate that the Chairman did for a much larger 
representation of this Committee and Members of Congress. We 
all have pressure about making sure we are doing the right 
thing for those species, and we are supporting and advocating 
for our producers and our ranchers and farmers.
    What else can Congress do that minimizes what could be, and 
too often is, natural tension that creates a more harmonious 
environment where people really are and motivated to work 
together and do many of the kind of problem solving aspects 
that each of you have talked about in your testimony today? 
What can we do?
    Ms. Dawson. You have seen some great examples here today of 
folks coming to the table to work together to find innovative 
and special solutions to some of our problems. I think that 
consistent support for those programs that have enabled that is 
going to be of paramount importance, going forward. Continuing 
support for EQIP and other farm bill conservation programs 
makes it possible for a lot of us to deliver and engage in the 
practices that we want to see on landscapes. And enabling NRCS 
and other organizations to do demonstration projects so folks 
can see it enacted in real life, I think that that makes such a 
big difference when people can see the kinds of things that 
maybe Mr. Price is doing on his land. We can see those in 
action and people can see that it works and we are able to get 
more interest in things that way.
    And then continuing to work with community-based 
organizations, the folks on the ground who are doing the work, 
they are the ones who are experts in what is really needed. 
Instead of any kind of top down approach, it is really great to 
be able to engage the people who are doing the work who are 
engaging locally who can drive the planning and the strategies 
from that side of things.
    Ms. Lujan Grisham. Thank you.
    Mr. Chairman, I yield back. That is like a minute and 
almost 10 seconds credit I have.
    The Chairman. Well if the gentlelady will yield, I would 
like to open up to the other three members of the panel to----
    Ms. Lujan Grisham. I yield, absolutely.
    The Chairman.--answer that question as well. What can we 
do, in being forward looking, I think we did a pretty good farm 
bill, but before we know it, it will be time to start on the 
next one. Any critique on things we can do differently, or new 
ideas that we haven't addressed? What should we do or what 
shouldn't we do?
    Mr. Price. I don't know what you should do, but the Great 
Plains--and that covers a whole lot of country--developed and 
functions as a grazing and fire-dependent vegetative ecology. 
Lack of either disturbers, and that includes the fire and the 
grazing, changes the vegetative dynamics and subsequently 
limits the habitat for livestock and wildlife. In other words, 
as I have said before, we are changing our environment from 
lack of animal impact and you look at some of these endangered 
species, the sage-grouse, the monarch butterfly, the changes of 
these rangelands turning into a brush-type desert habitat that 
is what is causing this, and we need to portray to the public 
and through NRCS is a tremendously good way to do it, or the 
USDA, what has happened and what we need to do to resolve it, 
and push it as hard as we can. We are literally looking at the 
desertification of the Great Plains. And we are pretty darn 
close to being there already.
    The Chairman. Mr. Bowman?
    Mr. Bowman. I have one for you that will be really hard, 
and it is hard because you are in the public spotlight. Our 
trustees, on a regular basis, will ask us what we tried that 
didn't work, and my brother still farms. He tried growing 20 
acres last year. It was a complete disaster, the worst thing he 
ever did, but he tried it. And producers try things, the 
private-sector tries things, the not-for-profit sector tries 
things, and it would be a really interesting set of testimony, 
albeit a risky set of testimony, to ask the agencies to come in 
and say so what did you try in the last year that didn't work, 
and what did you learn from it? That is the only way we change 
these programs is by trying things and recognizing that some of 
them aren't going to work. I'm still not sure our RCPP proposal 
is going to work. We are going to get some good stuff done, but 
whether or not we get to the outcomes we want to get to, I 
don't know. It is an experiment. It is a new way to deliver 
conservation, and figuring out how to try some of that stuff.
    I managed a nonprofit that was rehabilitating housing in an 
urban area with HUD grants, and every month I had to submit a 
monthly report and every month, that report came back from the 
person whose job it was to review that, because something was 
wrong on it. And frankly, I spent more time filling out reports 
than I did rehabbing houses, and was grumbling about it to one 
of my older mentors, and he said what you have to understand is 
that that individual will never get in trouble because you 
didn't get any houses done, but they will get in trouble if 
they get a bad GAO report. And that is the culture that you are 
fighting, that you have to figure out how to change, how to 
enable that risk taking.
    The Chairman. Understood. Thank you very much.
    Mr. Rodelius, any input?
    Mr. Rodelius. I would just like to remind all of us that we 
live in the midst of a very productive bunch of soil. We have 
some of the best soil in the world. Only 11 percent of the soil 
in the world is arable, and of that, very little of it is 
highly productive, and we have to manage the tension of farming 
that land to its maximum and healing that land at the same 
time. I would really encourage the NRCS to keep helping people 
help the land, and let's find ways to work together toward that 
end.
    The Chairman. Okay, thank you very much.
    I yield to the gentlelady for any closing remarks.
    Ms. Lujan Grisham. Mr. Chairman, I don't have any specific 
closing remarks. I appreciate the panel, and I really 
appreciate the closing sentiments and your allowance of extra 
time to talk about the power of learning from our mistakes, not 
being so risk-adverse, and to taking every opportunity to 
collaborate and work together.
    So thank you very much for the hearing today, and thank you 
very much to the panel for staying so late. We appreciate you 
very much.
    The Chairman. Just seconding all the comments of the 
Ranking Member. Thank you for coming here and sharing your 
expertise. Chief, thanks for sticking around. That is why USDA 
is my favorite agency. You guys are in it for the long haul. 
You and Chief Tidwell, consistently, are engaged and when we 
are doing something, you are here for the second panel, and we 
recognize that and we really, really appreciate it.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any questions posed by a Member.
    This Subcommittee on Conservation and Forestry hearing is 
now adjourned.
    [Whereupon, at 4:55 p.m., the Subcommittee was adjourned.]

                                  [all]
</pre></body></html>
